<html>
<title> - H.CON.RES. 268, A RESOLUTION REGARDING ATLANTIC HIGHLY MIGRATORY SPECIES, INCLUDING MARLIN</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
   H.CON.RES. 268, A RESOLUTION REGARDING ATLANTIC HIGHLY MIGRATORY 
                       SPECIES, INCLUDING MARLIN

=======================================================================

                          LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                      Thursday, September 11, 2003

                               __________

                           Serial No. 108-54

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

89-312              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
Randy Neugebauer, Texas

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

       SUBCOMMITTE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                 WAYNE T. GILCHREST, Maryland, Chairman
        FRANK PALLONE, JR., New Jersey, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
W.J. ``Billy'' Tauzin, Louisiana         Samoa
Jim Saxton, New Jersey               Neil Abercrombie, Hawaii
Mark E. Souder, Indiana              Solomon P. Ortiz, Texas
Walter B. Jones, Jr., North          Ron Kind, Wisconsin
    Carolina                         Madeleine Z. Bordallo, Guam
Randy Neugebauer, Texas              Nick J. Rahall II, West Virginia, 
Richard W. Pombo, California, ex         ex officio
    officio


                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Thursday, September 11, 2003.....................     1

Statement of Members:
    Faleomavaega, Hon. Eni F.H., a Delegate in Congress from 
      American Samoa.............................................     6
    Pallone, Hon. Frank, Jr., a Representative in Congress from 
      the State of New Jersey....................................     4
        Prepared statement of....................................     5
    Saxton, Hon. Jim, a Representative in Congress from the State 
      of New Jersey..............................................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Balton, David A., Deputy Assistant Secretary of State for 
      Oceans and Fisheries, U.S. Department of State.............    20
        Prepared statement of....................................    23
        Response to questions submitted for the record...........    25
    Considine, John, Director of Cargo Verification Division, 
      Trade Compliance and Facilitation, Bureau of Customs and 
      Border Protection..........................................    27
        Prepared statement of....................................    28
    Dunnigan, John H., Director, Office of Sustainable Fisheries, 
      National Marine Fisheries Service, National Oceanic and 
      Atmospheric Administration, U.S. Department of Commerce....    10
        Prepared statement of....................................    13
        Response to questions submitted for the record...........    16
    Hathaway, Rear Admiral Jeffrey J., Director of Coast Guard 
      Operations Policy, U.S. Coast Guard........................    29
        Prepared statement of....................................    31
        Response to questions submitted for the record...........    32

Additional materials supplied:
    Recreational Fishing Alliance, Statement submitted for the 
      record by The Honorable Jim Saxton.........................     7


  LEGISLATIVE HEARING ON H.CON.RES. 268, A RESOLUTION EXPRESSING THE 
SENSE OF CONGRESS REGARDING THE IMPOSITION OF SANCTIONS ON NATIONS THAT 
   ARE UNDERMINING THE EFFECTIVENESS OF CONSERVATION AND MANAGEMENT 
   MEASURES FOR ATLANTIC HIGHLY MIGRATORY SPECIES, INCLUDING MARLIN, 
    ADOPTED BY THE INTERNATIONAL COMMISSION FOR THE CONSERVATION OF 
  ATLANTIC TUNAS AND THAT ARE THREATENING THE CONTINUED VIABILITY OF 
          UNITED STATES COMMERCIAL AND RECREATIONAL FISHERIES.

                              ----------                              


                      Thursday, September 11, 2003

                     U.S. House of Representatives

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:03 a.m., in 
Room 1324, Longworth House Office Building, Hon. Jim Saxton 
presiding.
    Present: Representatives Saxton, Faleomavaega, and Pallone.

STATEMENT OF THE HON. JIM SAXTON, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW JERSEY

    Mr. Saxton. Good morning and welcome to Members of the 
Subcommittee and witnesses who have taken time out of their 
schedules to be here with us today. Thank you for coming.
    I am pleased to be here to discuss a resolution I have 
sponsored and one which Mr. Gilchrest has joined me on. And 
though he could not be here with us today, this is an issue of 
importance to him as well.
    While we held a hearing on a similar resolution during the 
107th Congress, several new issues and subsequent questions 
regarding this problem have arisen since then, and it is my 
hope that we can examine them further and hopefully draw some 
conclusions as to how we ought to proceed.
    One of the biggest of these issues is that of compliance on 
many levels. For example, as more than 90 percent of the 
world's fish are taken within countries' EEZs, how do we get 
compliance with international fishery regimes and within 
countries' EEZs?
    Another part of the compliance issue is, since white marlin 
has been petitioned for listing under the U.S. Endangered 
Species Act and the problem is international fishing pressure, 
how do we get compliance on marlin conservation measures which 
are already in place?
    Finally, ICCAT was created to protect these species and to 
work toward sustainable management goals to ensure their 
survival. One question which could be logically asked of this 
process is: What mechanisms are there for ICCAT to ensure 
enforcement with member nations?
    I have, for a very long time, been concerned with the 
dramatic drop in population of white marlin. Prior to the 
1960s, these species were healthy and thriving, just before the 
introduction of pelagic longline fishing in the Atlantic Ocean. 
Since this time, the species has steadily plummeted.
    The latest stock assessment I have seen indicates the total 
Atlantic marlin stock population has declined to less than 12 
percent of its maximum sustainable yield level. Current fishing 
mortality was estimated to be at least 7 times higher than the 
maximum sustainable level. Overfishing had taken place for over 
three decades, and the stock is less productive than previously 
estimated, with a maximum sustainable yield of less than 1,300 
metric tons. The bottom line: This species needs an immediate 
strong conservation measure, or it may disappear forever.
    This resolution represents an important step in the process 
of international conservation of this dwindling species. I have 
spent a great deal of time on this issue. It is important we 
recognize that the bottom line is pelagic longline fishing is 
an indiscriminate, irresponsible way of fishing. Though the 
U.S. longline fleet does contribute to the taking of this 
species, the majority of the bycatch comes from the 
international fleets, and this needs to be stopped.
    I was pleased that the Recreational Fishing Alliance filed 
a petition with the U.S. Trade Representative last year, 
requesting the President take action against the European Union 
under Section 301 of the Trade Act of 1974 as amended. Though 
this petition was withdrawn, the issue remains a critical one.
    As a contracting nation, the U.S. has a history of 
compliance with ICCAT quotas and conservation measures. 
However, the European Union, particularly Spain and Portugal, 
has a history of serious non-compliance with ICCAT. For 
example, the EU has consistently exceeded catch limits, quotas, 
and landing limits for the Eastern Atlantic bluefin tuna and 
ignored rules for the protection of juvenile swordfish.
    In deciding that the white marlin does not warrant 
designation as threatened or endangered under the Endangered 
Species Act, the National Marine Fisheries Service said the 
U.S. accounts for approximately 5 percent of the total 
mortality of white marlin, while the rest is due to bycatch by 
the international longline fisheries.
    The petition alleges that the EU has committed three unfair 
trade practices under Section 301, including: non-compliance 
with ICCAT catch limits, quotas, and landing limits for certain 
species of highly migratory fish; non-compliance with ICCAT 
rules for the protection of juvenile fish; and granting 
subsidies to the fishing industry through its Common Fisheries 
Policy in violation of the WTO's Subsidies Agreement.
    The U.S. is a world leader on so many important and complex 
issues. I do not understand why the issue of fisheries 
management and enforcement of regulations currently in place, 
both domestically and internationally, seems to be impossible 
to accomplish. I look forward to working with all of you to 
find a solution to this grave problem. I fear if we do not, 
many of these species will simply disappear forever, which 
would be tragic.
    Thank you, and I look forward to hearing the testimony. At 
this time I will yield to Mr. Pallone for his comments.
    [The prepared statement of Mr. Saxton follows:]

  Statement of The Honorable Jim Saxton, a Representative in Congress 
                            from New Jersey

    Good morning, and welcome members of the Subcommittee and the 
witnesses who have taken the time out of their schedules to be with us 
today. I am pleased to be here to discuss a resolution I have 
sponsored, and one which Mr. Gilchrest has joined with me on, and 
though he could not be with us today, this is an issue of importance to 
him as well.
    House Concurrent Resolution 268, which was introduced on July 31, 
2003, expresses the sense of Congress regarding the imposition of trade 
sanctions on nations that are undermining the effectiveness of 
conservation and management measures for Atlantic marlin adopted by the 
International Convention for the Conservation of Atlantic Tunas (ICCAT) 
and that are threatening the continued viability of United States 
commercial and recreational fisheries.
    While we held a hearing on a similar resolution during the 107th 
Congress, several new issues and subsequent questions regarding this 
problem have arisen since then and it is my hope we can examine them 
further and hopefully draw some conclusions as to how we ought to 
proceed.
    One of the biggest of these issues is that of compliance--on many 
levels. For example: as more than 90 percent of the world's fish are 
taken within countries' EEZs, how do we get compliance with 
international fishery regimes within countries' EEZs?
    Another part of the compliance issue is: Since white marlin has 
been petitioned for listing under the U.S. Endangered Species Act and 
the problem is international fishing pressure, how do we get compliance 
on marlin conservation measures already in place?
    Finally, ICCAT was created to protect these species and to work 
toward attainable management goals to ensure their survival. One 
question which could be logically asked of this process is: what 
mechanisms are there within ICCAT to insure compliance with member 
nations?
    I have for a very long time been concerned with the dramatic drop 
in population of white marlin. Prior to the 1960s these species were 
healthy and thriving, just before the introduction of pelagic longline 
fishing in the Atlantic Ocean. Since this time, the species has 
steadily plummeted.
    The latest stock assessment I have seen indicates the total 
Atlantic stock population had declined to less than 12 percent of its 
maximum sustainable yield level; current fishing mortality was 
estimated to be at least seven times higher than the maximum 
sustainable level; over fishing had taken place for over three decades 
and the stock is less productive than previously estimated, with a 
maximum sustainable yield of less than 1300 metric tons. The bottom 
line--this species needs an immediate strong conservation measure or it 
may disappear forever.
    This resolution represents an important step in the process of the 
international conservation of this dwindling species. I have spent a 
great deal of time on this issue, it is important we recognize the 
bottom line is pelagic longline fishing is an indiscriminate, 
irresponsible way of fishing. Though the U.S. longline fleet does 
contribute to the taking of this species, the majority of bycatch comes 
from the international fleets and this needs to be stopped.
    I was pleased that the Recreational Fishing Alliance (RFA) filed a 
petition with the U.S. Trade Representative last year, requesting the 
President take action against the European Union under Section 301 of 
the Trade Act of 1974, as amended. Though this petition was withdrawn, 
this issue remains a critical one.
    As a contracting nation, the U.S. has a history of compliance with 
ICCAT quotas and conservation measures. However, the European Union, 
particularly Spain and Portugal, has a history of serious non-
compliance with ICCAT. For example, the EU has consistently exceeded 
catch limits, quotas, and landing limits for Eastern Atlantic bluefin 
tuna and ignored rules for the protection of juvenile swordfish.
    In deciding that the white marlin does not warrant as threatened or 
endangered under the Endangered Species Act (ESA), the National Marine 
Fisheries Service said the U.S. accounts for approximately five percent 
of the total mortality of white marlin, while the rest is due to 
bycatch in international longline fisheries.
    The petition alleges that the EU has committed three unfair trade 
practices under Section 301 including: non-compliance with ICCAT catch 
limits, quotas, and landing limits for certain species of highly 
migratory fish, non-compliance with ICCAT rules for the protection of 
juvenile fish, and granting subsidies to its fishing industry through 
its Common Fisheries Policy in violation of the WTO Subsidies 
Agreement. The U.S. is a world leader on so many important and complex 
issues; I do not understand why the issue of fisheries management and 
enforcement of the regulations currently in place both domestically and 
internationally, seems impossible to accomplish. I look forward to 
working with all of you to find a solution to this grave problem. I 
fear if we do not, many of these species may simply disappear forever, 
which would be tragic.
    Thank you, and I look forward to hearing your testimony.
                                 ______
                                 

   STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Saxton. I want to thank you for 
reintroducing this resolution and also our Chairman for 
promptly holding a hearing on it. And if I am not already a 
cosponsor, I would ask that I be made a cosponsor of the 
resolution because I do support it.
    As I said at our May Subcommittee hearing, international 
fisheries agreements, including the International Commission 
for the Conservation of Atlantic Tunas, ICCAT, are critical for 
a healthy ocean and a healthy economy. When fish stocks remain 
at severely depleted levels, ecosystem structure is altered and 
millions of dollars in revenue are lost every year.
    As we learned at the Subcommittee's hearing last year on a 
similar resolution, the Atlantic white marlin stock is in the 
worst shape of all the species managed by ICCAT. Considering it 
is only one of eight overfished highly migratory species, this 
is quite a distinction. It is a distinction, however, that our 
fishermen would rather not have to live with. Not only does 
illegal, unregulated, and unreported fishing undermine market 
prices to a point that our law-abiding commercial fishermen can 
no longer afford to fish, but IUU fishing also forces non-
commercial fishermen to be stringently regulated.
    Forty years of ICCAT management has led to two-thirds of 
the highly migratory species it oversees being overfished. 
Although fisheries management is not easy and has not been done 
exceptionally well anywhere in the world, the lack of 
compliance by ICCAT contracting members with ICCAT's own 
recommendations hamstrings this commission considerably. And if 
U.S. fishermen are expected to adhere to national and 
international laws while maintaining an economically viable 
industry, our administration must be willing to take a strong 
position supporting internationally enforceable 
recommendations.
    I am heartened, however, by the attention this problem is 
receiving both within our Subcommittee and also with the 
public. The Pew Oceans Report and the Dr. Myers and Dr. Worm's 
Nature article leave no doubt that ICCAT's management of 
international fisheries needs to improve, and I have high hopes 
that this resolution will provoke a thorough debate at this 
November's ICCAT meeting in Dublin.
    The United States must continue to be a leader in 
formulating internationally enforceable commission that will 
lead to healthy stocks, but we must also improve our own 
compliance as well. Although a challenging task, the increased 
monitoring of the import and export of fish will lead to 
greater understanding of this trade and help impede illegal and 
unregulated commerce. And I look forward to hearing how the 
administration is tackling this charge and whether we in 
Congress can do anything to help.
    And, again, thank you, Mr. Saxton, for once again bringing 
this to our attention.
    [The prepared statement of Mr. Pallone follows:]

      Statement of The Honorable Frank Pallone, Ranking Democrat, 
      Subcommittee on Fisheries Conservation, Wildlife and Oceans

    Good morning. I'd like to thank Mr. Saxton for reintroducing this 
resolution and our Chairman for promptly holding a hearing on it. As I 
said at our May subcommittee hearing, international fisheries 
agreements, including the International Commission for the Conservation 
for Atlantic Tunas (ICCAT), are critical for a healthy ocean and a 
healthy economy. When fish stocks remain at severely depleted levels, 
ecosystem structure is altered, and millions of dollars in revenue are 
lost every year.
    As we learned at the subcommittee's hearing last year on a similar 
resolution, the Atlantic white marlin stock is in the worst shape of 
all the species managed by ICCAT. Considering it is only one of eight 
overfished highly migratory species (HMS), this is quite a distinction. 
It is a distinction, however, that our fishermen would rather not have 
to live with. Not only does illegal, unregulated, and unreported (IUU) 
fishing undermine market prices to a point that our law-abiding 
commercial fishermen can no longer afford to fish, but IUU fishing also 
forces non-commercial fishermen to be stringently regulated.
    Forty years of ICCAT management has led to two thirds of the highly 
migratory species it oversees being overfished. Although fisheries 
management is not easy and has not been done exceptionally well 
anywhere in the world, the lack of compliance by ICCAT contracting 
members with ICCAT's own recommendations hamstrings this commission 
considerably. And if United States fishermen are expected to adhere to 
national and international laws, while maintaining an economically 
viable industry, our administration must be willing to take a strong 
position supporting internationally enforceable recommendations.
    I am heartened, however, by the attention this problem is receiving 
both within our subcommittee and the public's eye. The Pew Oceans 
report and Dr. Myers and Dr. Worm's Nature article leave no doubt that 
ICCAT's management of international fisheries needs to improve. I have 
high hopes that this resolution will provoke a thorough debate at this 
November's ICCAT meeting.
    The United States must continue to be a leader in formulating 
internationally enforceable recommendations that will lead to healthy 
stocks, but we must also improve our own compliance as well.
    Although a challenging task, the increased monitoring of the import 
and export of fish will lead to greater understanding of this trade and 
help impede illegal and unregulated commerce. I look forward to hearing 
how the Administration is tackling this charge and whether we in 
Congress can do anything to help. Thank you.
                                 ______
                                 
    Mr. Saxton. Thank you very much.
    Mr. Faleomavaega?

STATEMENT OF HON. ENI F.H. FALEOMAVAEGA, A DELEGATE IN CONGRESS 
                      FROM AMERICAN SAMOA

    Mr. Faleomavaega. Mr. Chairman, I, too, would like to add 
my name as a cosponsor to the proposed resolution and commend 
you and Mr. Gilchrest for bringing forth this resolution for 
consideration by our Subcommittee. Not only is it overdue, but 
we seriously need to review the situation with the fisheries. 
It has always been my understanding that in the Atlantic area 
there are some very serious problems in conservation and there 
are moratoriums on several different species of fish. Of 
course, for those of us from the Pacific, we have similar 
problem, for example, with all the fishing countries from 
Europe and everywhere else coming to the Pacific.
    To my understanding, right now 53 percent of the world's 
tuna comes from the Western and Central Pacific regions. We are 
having problems with some of the European countries coming over 
here, those having bilateral agreements with some of the island 
nations. They completely disregard any measures of 
conservation. They just take everything.
    One of the concerns that I have expressed in earlier years, 
Mr. Chairman, when you were Chairman of our Subcommittee is 
that of miscellaneous fish that we just do not seem to care 
about. Fishing boats go out and do not like the swordfish--
which have, you know, just as much protein in them, but are 
disregarded because there is not a market value like tuna or 
other species.
    I am very concerned about this. In fact, I would like to 
see a similar resolution to address the concerns we have in the 
Pacific.
    The question of drift nets is also being raised in the 
Pacific. We have had some very interesting experiences in 
dealing with these drifts nets, 15, 30 miles a stretch, 
catching just about everything in sight. It has been a real 
learning experience over the past years regarding some of the 
countries that provide for these kinds of fishing methods.
    I have also recommended to our Chairman that we hold an 
oversight hearing on the recent Pew Oceans Commission Report 
and a couple of other reports that address the situation with 
the oceans and what this means to fisheries.
    Unfortunately, I think we are not doing enough in promoting 
more fisheries programs, agricultural development and fish 
farming. Why we have to import $9 billion worth of fish every 
year from foreign countries just escapes me. Why can't we do it 
domestically on our own? I am puzzled by this.
    I do want to offer my welcome to our friends who are going 
to be testifying this morning, and I look forward to hearing 
from them.
    Again, Mr. Chairman, thank you for calling this hearing 
this morning.
    Mr. Saxton. Thank you, Mr. Faleomavaega. I appreciate your 
comments.
    Just let me say that from a conservation point of view, 
this is an extremely important issue--set of issues, I should 
say. From an economic point of view, it is equally important. 
You know, we talk a lot about the commercial fishing industry, 
and that is very important to our economy. But it is a small 
fraction, frankly, the commercial fishing aspect of this is a 
small fraction of the total economic impact.
    When Mr. Pallone stands on Sandy Hook and watches the 
fishing boats go out to sea, you see a commercial boat go out, 
and then you see ten recreational boats go out. And when he 
stands at Manasquan Inlet in his district and he sees a 
commercial fishing boat go out, then he sees 20 recreational 
fishing boats go out. And when I stand at Barnegat Light or 
Atlantic City Inlet and watch a commercial boat go out, I see 
20 or 30 recreational boats go out.
    And so this is a conservation issue, a set of conservation 
issues that has enormous economic consequences if we do not 
deal with it in an expeditious way.
    And I might say that a lot of the economic impact is really 
hidden from many who think about conservation. In the southern 
part of New Jersey, Mr. Pallone and I probably have something 
in the neighborhood of seven, eight, ten thousand people 
working building boats that go out of Cape May and Atlantic 
City and Barnegat and Manasquan and the other smaller inlets 
along the coast. And these are little guys. These are guys that 
do fiberglass work. These are guys that do plumbing. These are 
electricians. These are people who are working hard to put 
together a system of systems that is called a fishing boat.
    For our State and for other coastal States, and for your 
home as well, these are great issues, conservation issues, but 
also economic issues that affect both the commercial and 
recreational fishing industry.
    So thank you all for being here. I just would like to ask 
unanimous consent at this point to include a statement from the 
Recreational Fishing Alliance for the record.
    [The prepared statement of the Recreational Fishing 
Alliance follows:]

Statement submitted for the record by the Recreational Fishing Alliance

I. Introduction
    The Recreational Fishing Alliance (RFA) is a national, grassroots 
political action organization representing individual sport fishermen 
and the sport fishing industry. The RFA Mission is to safeguard the 
rights of saltwater anglers, protect marine, boat and tackle industry 
jobs and ensure the long-term sustainability of U.S. saltwater 
fisheries. RFA members include individual anglers, boat builders, 
fishing tackle manufacturers, party and charter boat businesses, bait 
and tackle retailers, marinas, and many other businesses in fishing 
communities.
    The U.S. recreational fishing industry has a right to expect 
foreign governments to live up to their treaty obligations. The 
European Union has not lived up to its obligations under the 
International Convention for the Conservation of Atlantic Tunas 
(ICCAT). The U.S. must take stronger steps to assert the interests of 
the recreational fishing industry through ICCAT. Therefore, the RFA 
fully supports H.Con.Res. 268.
II. Economics of Recreational Fishing
    As stated in the 2003 Stock Assessment and Fishery Evaluation for 
Atlantic Highly Migratory Species (SAFE report) from the National 
Marine Fisheries Service (NMFS), recreational fishing has a large 
impact on the economies of coastal communities. In fact, a 2002 report 
from the American Sportfishing Association states that overall, 
recreational fishing is a $116 billion industry in the United States.
    While recreational fishing for highly migratory species such as 
marlin, sharks, swordfish and tuna is a specialized segment of this 
industry, it has a major impact on our Nation's economy and quality of 
life. There is a vast segment of boat builders, fishing tackle 
manufacturers, party and charter boat businesses, bait and tackle 
retailers, marinas, and many other businesses in fishing communities 
which cater specifically to recreational fishermen who fish for 
Atlantic highly migratory species (HMS). For example, the Viking Yacht 
Company in New Gretna, N.J., in Mr. Saxton's District employs over 1200 
people who build 100 yachts a year that are specifically designed and 
primarily used to target highly migratory species. There are also a 
number of annual Atlantic HMS tournaments such as the Ocean City White 
Marlin Open in Ocean City, Md., and the Mid-Atlantic $500,000 in Cape 
May, N.J., which generate millions of dollars for coastal communities. 
Thus, a large segment of the recreational fishing industry is dependent 
on healthy stocks highly migratory species.
    These fishermen have a strong, voluntary conservation ethic and 
employ sustainable, inefficient fishing gear that traditionally has not 
resulted in overfishing. In fact, recreational fishermen who fish for 
marlin release over 98% of the fish they catch believing that fishing 
for, hooking, fighting and releasing them to swim another day is a more 
valuable experience than killing the fish for consumption.
III. Overfishing by the European Union
    The Recreational Fishing Alliance asserts that fishing pressure by 
the highly subsidized commercial longline vessels of the EU has placed 
certain highly migratory species of the Atlantic Ocean and adjacent 
seas at risk and resulted in violations of the International Convention 
for the Conservation of Atlantic Tunas (ICCAT), a commercial fisheries 
treaty that permits the use of trade-related sanctions, and the WTO 
Agreement on Subsidies and Countervailing Measures (Subsidies 
Agreement). The actions of the EU have turned the International 
Convention for the Conservation of Atlantic Tunas into the 
International Convention for the Destruction of Atlantic Tunas. Less 
fish plus more regulation of U.S. fishermen equals significantly less 
participation in recreational fishing. Less participation equals 
significantly less commerce for the recreational fishing industry.
IV. Why ICCAT is a Trade Agreement
    The ICCAT Convention is a commercial fisheries agreement and, as 
such, is a ``trade agreement'' within the meaning of Section 301 of the 
Trade Act of 1974. The domestic implementing legislation for the ICCAT 
Convention is the Atlantic Tunas Convention Act of 1975 (ATCA). This 
statute is listed in the ``Overview and Compilation of U.S. Trade 
Statutes'' published by the Committee on Ways and Means of the House of 
Representatives (emphasis added), underlining the fact that the ICCAT 
Convention is a type of trade agreement and the ATCA is the U.S. trade 
statute implementing the ICCAT Convention domestically.
    The ICCAT Convention is an international commodity agreement 
designed to conserve natural resources by limiting harvesting of fish 
through a total allowable catch (TAC) and individual participating 
country quotas. As such, the ICCAT Convention is an international 
commodity agreement that restricts the play of competitive market 
forces because of its form. The ICCAT Convention is a ``trade 
agreement'' because it restricts trade in the fish species that it 
covers. By limiting the volume of fish that may be landed from national 
vessels, the ICCAT Convention is restricting international trade in the 
covered species.
V. The European Union's Unfair Trade Practices
    The RFA alleges that the EU has committed three unfair trade 
practices under Section 301 of the Trade Act of 1974, as amended:
    (a) It has acted unjustifiably by violating and acting 
inconsistently with the ICCAT Convention by non-compliance with the 
catch limits, quotas, and landing limits for certain species of HMS and 
rules for the protection of juvenile fish;
    (b) It has acted unreasonably by refusing to accept the 
determination of the scientific advisory body of ICCAT, the Standing 
Committee on Research and Statistics (SCRS), that the stock for East 
Atlantic bluefin tuna is over-exploited and that the total allowable 
catch (TAC) for East Atlantic bluefin tuna should be limited to 25,000 
metric tons, resulting in overfishing of East and West Atlantic bluefin 
tuna; and
    (c) It has provided subsidies to its fishing industry through its 
Common Fisheries Policy (CFP) and its funding mechanism, the Financial 
Instrument for Fisheries Guidance (FIFG), that violate and are 
inconsistent with the WTO Subsidies Agreement adopted by the EU and the 
United States in the Uruguay Round of Multilateral Trade Negotiations.
    These unfair trade practices are related because they are all part 
of a common scheme by the European Union. The subsidies granted by the 
European Union to its fishing sector have contributed to increasingly 
large fleets that participate in unsustainable and illegal fishing in 
the Atlantic Ocean and adjacent seas. The injection of 1.1 billion 
Euros of public money into the fisheries sector each year in the EU 
represents a significant proportion of the value of the total Community 
production (7 billion Euros for fish landings). About $440 million a 
year has been contributed by the EU and national governments to the 
fisheries sector in subsidies that contribute to reducing the costs of 
the investment of the fisheries sector and thus contributes to 
overfishing.
    Twenty-four percent of the structural aid provided by the EU to its 
fisheries sector, or about 160 million Euros a year, has been used to 
promote investment in the modernization or renewal of fishing vessels, 
while 280 million Euros per year are paid for the right of about 850 EU 
vessels to fish outside EU waters under fisheries agreements with non-
European third countries. The over-capacity in EU fleets has, in turn, 
resulted in over-exploitation by the EU of HMS. The trade-distorting EU 
fishing subsidies have had adverse effects on the U.S. commercial and 
recreational fishing industries, resulting in serious prejudice to the 
interests of the United States.
    That EU subsidies for its fishing sector have led to overfishing 
has been recognized by the EU Commission, which has stated bluntly that 
``if current trends continue, many stocks will collapse. At the same 
time, the available fishing capacity of the Community fleets far 
exceeds that required to harvest fish in a sustainable manner.'' (See 
ICCAT, 1999 Detailed Report--Swordfish, available at http://
www.iccat.es/, under ``Assessment and Biology,'' Species Groups, at 
Table 29). Fueled by its subsidized over-capacity, the EU has violated 
and acted inconsistently with the ICCAT Convention by failing to ensure 
that vessels registered under its laws fish in a manner that is 
consistent with ICCAT conservation and management measures relating to 
East Atlantic bluefin tuna, North Atlantic swordfish, Atlantic white 
marlin, and Atlantic blue marlin, all of which are highly migratory 
species.
    The EU has violated the ICCAT Convention by failing to enforce 
binding ICCAT recommendations related to the catch of juvenile 
swordfish and bluefin tuna. For example, despite a tolerance level set 
at 15% of total landings for undersize fish, in 1998 Spain had a 
landing percentage of juvenile North Atlantic swordfish of 37% and 
Portugal had a landing percentage of 39.5%. Thus, Spain and Portugal 
caught more than twice as many juvenile swordfish as permitted under 
ICCAT rules.
    The EU has acted inconsistently with the ICCAT Convention by 
overfishing East Atlantic bluefin tuna in contravention of the 
recommendations of ICCAT's Standing Committee on Research and 
Statistics (SCRS). Such overfishing not only affects East Atlantic 
bluefin tuna stocks but also West Atlantic bluefin tuna stocks because 
there is significant mixing between the ``two stocks''. The 
unwillingness of the EU to accept the scientific advice of the SCRS of 
ICCAT is part of the pattern of systematic fixing of Total Allowable 
Catch for fish by the EU members at levels higher than indicated in the 
scientific advice provided to the EU from experts within the EU.
    The EU's actions have placed excessive pressure on several HMS, 
including the Atlantic white marlin, which is at approximately 15% of 
the maximum sustainable yield (MSY) level. Drastic remedial action at 
the international level forced by the United States is required because 
the level of catch of white marlin by the U.S. domestic vessels 
operating under the catch-and-release policy is only 5% of the total 
mortality for Atlantic white marlin.
VI. Burden on U.S. Commerce
    The unjustifiable and unreasonable practices of the EU have 
burdened U.S. commerce by severely reducing fishing opportunities for 
the recreational fishing industry as highly migratory species such as 
the white marlin and bluefin tuna become harder and harder to catch. 
Moreover, the failure of foreign ICCAT signatories to comply with catch 
limits and quotas has resulted in increasing restrictions on U.S 
recreational fishermen related to volume of fish they are allowed to 
land in the United States.
    For example, current regulations allow recreational fishermen to 
retain only one bluefin tuna per person per trip during a short season; 
current regulations allow recreational fishermen to retain only three 
yellowfin tuna per person per trip; current regulations allow 
recreational fishermen to retain only one swordfish per person per trip 
and a maximum of only three per vessel. Depleted stocks of HMS combined 
with these restrictions have resulted in significant harm to the 
recreational fishing industry. Less fish plus more regulation equals 
significantly less participation and less participation equals 
significantly less commerce.
    The U.S. recreational fishing industry has a right to expect 
foreign governments to live up to their treaty obligations. The 
European Union has not lived up to its obligations under the 
International Convention for the Conservation of Atlantic Tunas 
(ICCAT). The U.S. must take stronger steps to assert the interests of 
the recreational fishing industry through ICCAT. Therefore, the RFA 
fully supports H.Con.Res. 268.
                                 ______
                                 
    Mr. Saxton. I would also just note that a couple of 
witnesses have asked that they be permitted to provide 
testimony for more than the allotted 5 minutes, which is fine. 
We are going to use the lights just as indicators so that you 
know that your 5 minutes have come and gone, but we are 
flexible this morning.
    So thank you for being here. Our witnesses this morning 
are: Mr. John Dunnigan, Director of the Office of Sustainable 
Fisheries, National Marine Fisheries Service at NOAA; and Mr. 
David A. Balton, Deputy Assistant Secretary of State for Oceans 
and Fisheries, Department of State; Mr. John Considine, 
Director of Cargo Verification Division, Trade Compliance and 
Facilitation, Bureau of Customs and Border Protection; and Rear 
Admiral Jeffrey J. Hathaway, Director of Coast Guard 
Operations, United States Coast Guard.
    Gentleman, thank you all for being here with us this 
morning. Mr. Dunnigan, why don't you begin.

STATEMENT OF JOHN H. DUNNIGAN, DIRECTOR, OFFICE OF SUSTAINABLE 
   FISHERIES, NATIONAL MARINE FISHERIES SERVICE, NOAA, U.S. 
                     DEPARTMENT OF COMMERCE

    Mr. Dunnigan. I am Jack Dunnigan. I am the Director of the 
Office of Sustainable Fisheries in NOAA Fisheries. If I could, 
before I get into my testimony, Mr. Chairman, just a couple of 
comments.
    Today is obviously a very memorable day in the recent 
history of our country. It is a day that reminds all of us as 
to why we are Americans and brings us back to the true values 
that are important to us all.
    I would also like to take note of a sort of sad event last 
week, and that is the passing of a former staffer of this 
Committee and former NOAA Congressional Affairs staffer, Kip 
Robinson. He was a leader and a true gentleman and a great 
professional, and just a good guy. And we are all somewhat 
diminished that he is not with us anymore, and I hope we can 
all continue to carry forward the excellent example that he set 
for us, both in his time at NOAA and working with the 
Committee.
    With that thank you, let me say I think this is the first 
time, Mr. Chairman, that I have actually been before the 
Committee in my new Federal capacity. I have had the pleasure 
many times of being with you in my former position when I 
worked for the Atlantic Coastal States. I am glad to be back 
and honored to be able to represent the employees of NOAA and 
its Fisheries Service in dealing with what really are some of 
the very important issues that we have in the future of 
fisheries conservation and management.
    My new position has afforded me the opportunity to get more 
actively involved with international fisheries issues. I am the 
U.S. Government Commissioner now to the Northwest Atlantic 
Fisheries Organization, and I a member of our ICCAT delegation, 
and I supervise the International Fisheries Division. So it has 
been an interesting and eye-opening experience. In many ways, 
it is similar to what I encountered at the Atlantic State 
Marine Fisheries Commission in that you are trying to put 
together effective fisheries conservation and management with 
regulatory institutions that are somewhat sovereign and take 
great pride in their sovereignty. And what it does is it makes 
the job very difficult because rather than being able to just 
as a Federal Government say this is the way it is going to be 
because our authority derives from the Magnuson-Stevens act, we 
have to take the longer, harder, tougher approach of working 
with colleagues and convincing them of the importance of what 
we are doing and the absolute necessity to be aggressive in 
moving forward with fisheries conservation and management.
    Mr. Chairman, I would ask at this time that my written 
statement be inserted in the record, and I will just summarize 
a couple of the most salient points. Thank you.
    Mr. Saxton. Thank you. Your statement will be included in 
the record.
    Mr. Dunnigan. I would like to focus, I think, for the 
Committee's benefit mainly on the questions that you 
specifically directed to NOAA in your letter of invitation. 
Obviously, there is an interest here in trying to understand 
what is it we can do in this international world to try to 
bring countries together to do fisheries conservation and 
management effectively.
    The first thing that we have found that you have to do is 
you have to create a big table. You have to have a forum and 
encourage all of the parties to come together. We have seen a 
major change, for example, in the International Commission for 
the Conservation of Atlantic Tunas over the last 15 years where 
the membership of that organization has gone from about 20 to 
almost 40. And by bringing more of the countries under the 
tent, we say, it gives everybody a sense that they are 
stakeholders in the process.
    It is actually what we are doing now in the Western Pacific 
with the development of the Western and Central Pacific Treaty 
and Commission, creating a forum where all of the parties, all 
of the countries who are stakeholders in these fisheries can 
come together and decide mutually what is in their best 
interest.
    The second thing that we have to do is to be very attentive 
and very aggressive, really, in making sure that these regional 
fishery conservation organizations move forward with 
responsible fisheries conservation and management measures. We 
do that in all of the regional fishery management 
organizations. I think if you look around the globe, you will 
find that the United States is a leader in promoting 
responsible fisheries conservation and management practices. 
And it is not always easy to do because you have to recognize 
that parties come to the table with a lot of different 
interest, but that should not dissuade us from being as 
assertive as we can in sticking to good science-based 
management that points the direction that we have to go so that 
we can achieve some of the economic benefits that the Chairman 
was referring to in his opening statement.
    The third thing that you have to do is you then have to 
make sure that all of those countries go home and implement 
those measures, and that requires a lot of attention and a lot 
of follow-up by all of the parties. Certainly in my office, we 
are responsible for implementing, for example, all of the ICCAT 
recommendations for United States fishermen. But at the same 
time, it is very important for us to not just focus on what we 
are doing in our own fisheries, but keep a weather eye out for 
what our partners in the international community are doing.
    Earlier this year, there was an exchange of correspondence 
with the European Community over steps that they are taking to 
implement the recommendations out of ICCAT, and I think Dr. 
Hogarth in his discussions with the EU representatives has made 
is very clear that we appreciate the steps that the EU has said 
that they are going to take, but we are going to keep our eyes 
on them to make sure that they follow through.
    And then the fourth thing that we have to do is to make 
sure that these countries not only talk the talk and that we 
talk the talk, but that we actually implement and carry these 
things out. So it is a complex process to try to make these 
organizations work, but as a matter of fact, it is the steps 
that you have to take in a modern world if you are going to be 
able to influence ultimately the outcomes that you want to see 
in our international oceanic fisheries.
    A number of your questions also deal with IUU fishing, and 
let me say that I think over the last 5 years, there has been 
more attention given to IUU fishing by all countries than any 
of us might have expected when we started down this road. The 
problem with IUU fishing, your questions indicated some concern 
about whether it was a bigger problem in oceanic fisheries as 
opposed to coastal fisheries. And we don't really have a good 
feel for that. The problem, of course, is that the IUU 
fishermen who are all fishing illegally are not very 
transparent about what they are doing, so it is hard to get 
information.
    The other thing that has made IUU a greater problem in 
oceanic fisheries over the last couple of years really stems 
from three factors.
    First of all, the technology has gotten a lot better with 
advances in GPS, with advances in gear, with mechanical 
advances in power plants that fishing vessels can put on. It is 
much easier for fishermen to get out into the oceans and 
exploit these where they are away from surveillance that often 
predominates in coastal fisheries.
    I think, second, there has been a stepped-up amount of 
enforcement by countries all over the world in their coastal 
fisheries, and that enforcement has forced these IUU vessels, 
these illegal vessels that do not belong in any fishery, away 
from coastal fisheries.
    And, third, some of the species that these IUU fisheries 
are most interested in have become extremely valuable in the 
current world marketplace for fish products. If you look at the 
value of salmon, if you look at the value of Chilean sea bass, 
there is tremendous profit to be made in these illegal 
fisheries, and I think that also is stemming there.
    One of the things that the United States has done over the 
last couple of years to help address this issue is to become a 
leader in putting together what we call the MCS, the marine 
monitoring, conservation, and surveillance program, which 
involves about 20 countries right now. The United States chairs 
this effort. The United States runs the website, and it is a 
cooperative enforcement program among all of these countries to 
work together to identify where the IUU fishing is happening 
and coordinate enforcement responses to that.
    We think we have had a lot of success in the last couple of 
years, for example, with illegal imports of Patagonian 
toothfish, and we have been able to do that because we have the 
enforcement cooperation of the other countries through the MCS 
network. Chile has been an important part of that, as have 
other countries from the Southern oceans. So it is an important 
thing for us to continue to follow up on.
    Lastly, Mr. Chairman, a couple of your questions dealt 
specifically with ICCAT. We are getting ready right now very 
carefully for the ICCAT meeting, which will be held in Dublin 
in the second week of November. There are a number of 
activities that are ongoing. I know at least one of our 
commissioners is with us here this morning. Bob Hayes is here. 
I don't know if Glenn has made it yet. But we would agree that 
it is very important to improve the conservation and 
implementation measures that the countries are taking under 
ICCAT.
    There was an intercessional meeting that was held in 
Madeira last May where we looked at the compliance measures 
that are currently in place. Part of the problem in ICCAT is 
that these measures have been specified on a fishery-by-fishery 
basis as the commission moved forward to address the 
conservation that was necessary for these species. We think 
that ICCAT ought to take a broader approach, and we think that 
by doing that, we will be able to improve overall the ability 
of the ICCAT contracting parties to make sure that the 
recommendations are complied with.
    We also think that there is a very difficult problem with 
data in a lot of these ICCAT fisheries. The United States 
delegation made a major point of this at our meeting last year, 
and we will be having a follow-up meeting in Madrid on October 
the 11th.
    So with that, Mr. Chairman, let me move on here and say 
again it is a pleasure to be able to be here, and I look 
forward to being able to answer your questions.
    [The prepared statement of Mr. Dunnigan follows:]

    Statement of John H. Dunnigan, Director, Office of Sustainable 
  Fisheries, National Marine Fisheries Service, National Oceanic and 
        Atmospheric Administration, U.S. Department of Commerce

    Mr. Chairman and Members of the Subcommittee, thank you for 
inviting me to present testimony on H.Con.Res. 268 and topics related 
to international fishery conservation and management. I am John H. 
Dunnigan, Director of the Office of Sustainable Fisheries in the 
National Oceanic and Atmospheric Administration, Department of 
Commerce. I am the U.S. Government Commissioner to the Northwest 
Atlantic Fisheries Organization, and I serve on the U.S. Delegation to 
the International Commission for the Conservation of Atlantic Tunas 
(ICCAT).
    NOAA is pleased that the Subcommittee is focusing on efforts to 
ensure greater compliance with conservation measures adopted by 
international regional fishery management organizations (RFMOs) by both 
member and non-member nations, as well as the effect that illegal, 
unreported, and unregulated (IUU) fishing activities are having on the 
effectiveness of conservation measures. We have devoted increased 
effort to these areas in recent years, and we appreciate the 
Subcommittee's interest in and support of these activities.
    The Department welcomes H.Con.Res. 268, expressing the sense of 
Congress in ensuring compliance by foreign fishing fleets with the 
ICCAT conservation and management program. We recognize that Congress 
has provided a number of tools to encourage compliance with ICCAT rules 
and the rules of other RFMOs. We believe that the tools that result 
from multilateral decision processes are likely to be the most 
effective, and we intend to pursue their development and 
implementation.
    In its letter of invitation, the Subcommittee raised a number of 
questions regarding compliance with international conservation and 
management measures, and IUU fishing. I will address these concerns in 
this same order.

Compliance with RFMO Conservation and Management Measures and IUU 
        Fishing
    The Food and Agriculture Organization of the United Nations (FAO) 
defines IUU fishing to include wrongful fishing wherever it might occur 
on the high seas or in areas of national jurisdiction. The United 
States is completing its corresponding National Plan of Action in 
response to the agreement of the international community to the FAO 
International Plan of Action to Prevent, Deter, and Eliminate IUU 
Fishing. The Department of State took the lead in its development, and 
I will defer to its witness to brief you fully on this National Plan of 
Action.
    The FAO estimates that more than 90 percent of the world's marine 
fish harvests take place within areas of national jurisdiction. The 
question then arises, how do we secure compliance with international 
fishery regimes within areas of national jurisdiction? By definition, 
the question relates to highly migratory and straddling fish stocks. 
The answer is simpler in theory than in practice: first, we must ensure 
that the relevant coastal states are members of the applicable RFMO or, 
at least, observe its rules; second, we must ensure that the RFMO 
adopts appropriate conservation and management measures; third, we must 
ensure that the members implement in their domestic laws and 
regulations the measures agreed to within the RFMO; and, finally, we 
must ensure that these domestically implemented measures are properly 
enforced by the coastal states. Conservation can and will fail if any 
of these links is broken or not present. Importantly, the United 
Nations Fish Stock Agreement requires states whose fishing vessels 
operate in any area covered by a relevant RFMO to join the RFMO or 
agree to apply its conservation and management measures. This 
provision, however, only applies to Parties to the U.N. Agreement.
    The Subcommittee has also asked how much of the world's overfishing 
takes place within areas of national jurisdiction and how much occurs 
on the high seas. Complete documentation of the incidence of IUU 
fishing, either on the high seas or in areas under national 
jurisdiction, and the degree to which it contributes to overfishing 
does not exist. Those engaged in IUU fishing make every effort to 
conceal their activities. Also, I am not aware of any accepted estimate 
of the share of overfishing in high seas areas versus areas of national 
jurisdiction. I believe, however, that many of the most well-known 
examples of historic overfishing, e.g., various cod fisheries in the 
Atlantic off Canada, Iceland and Norway; sardines off California; and 
orange roughy in the South Pacific, have taken place largely, if not 
predominantly, in areas of national jurisdiction.
    IUU fishing on the high seas is a significant contemporary problem 
because the fishing technology employed tends to be very efficient and 
the target species, e.g., salmon and Patagonian toothfish, very 
valuable. IUU fishing on the high seas can do serious damage in a 
relatively short period of time; nevertheless, IUU fishing within areas 
of national jurisdiction likely contributes more to missing 
conservation goals than does IUU fishing on the high seas. At one 
extreme, even countries with the finest fisheries enforcement 
capabilities, like the United States, cannot conduct monitoring and 
surveillance everywhere within their jurisdictions. At the other 
extreme, the majority of the world's coastal states have far less 
adequate and, in some cases, virtually nonexistent fisheries 
enforcement capabilities. The same is true of their fisheries 
management, and scientific information collection and analysis 
capabilities. Coastal states that target highly migratory and 
straddling fish stocks, share a common interest in their ability to 
execute these functions. A number of ICCAT's newest members are 
countries in need of and desiring such internal capacity building. To 
that end, the United States is involved in a number of initiatives that 
directly address capacity building in needed areas, including the White 
Water to Blue Water initiative and the Large Marine Ecosystems project. 
While there are no quick fixes with regard to this important matter, 
any efforts to improve the ability of countries to monitor and control 
their fleets will help in combating IUU fishing.
    I also want to note our involvement in establishing and providing 
leadership to, along with our Chilean colleagues, the International 
Monitoring, Control, and Surveillance (MCS) Network. The MCS Network is 
a web-based, virtually cost-free alliance of fisheries enforcement 
professionals founded to enhance cooperation, coordination, and 
information collection and exchange. Its expanding membership includes 
11 states plus the Forum Fisheries Agency of the Central and South 
Pacific and the European Union. It is a very tangible implementation of 
the International Plan of Action on IUU fishing, as well as a means to 
expand the effectiveness and efficiency of fisheries enforcement, 
particularly for developing countries.

ICCAT
    ICCAT coordinates the international management of Atlantic tunas 
and tuna-like species. The organization currently has 36 members. 
Primary U.S. objectives over the last several years have included 
seeking measures to rebuild overfished stocks and improve adherence to 
ICCAT rules by members and non-members. With regard to rebuilding, we 
have had a number of successes, including the adoption of rebuilding 
plans for western bluefin tuna (1998), North Atlantic swordfish (1999), 
and blue and white marlins (2000). As you may know, the sacrifices made 
to rebuild North Atlantic swordfish began to show results last year 
with a significant increase in biomass. Although the resultant increase 
in total allowable catch was higher than the United States would have 
liked, we were nevertheless pleased to see such encouraging signs from 
the fishery in such a short time.
    ICCAT has adopted a variety of state-of-the-art compliance 
measures, including imposing penalties (e.g., quota reductions, trade 
sanctions) against members for infractions. The Commission has also 
adopted action plans that contemplate the use of trade sanctions 
against member and non-member countries that diminish the effectiveness 
of ICCAT, and sanctions have been imposed in several instances. These 
measures have been successful in reducing IUU fishing in the Convention 
area. Most recently in its fight against IUU fishing, ICCAT adopted a 
vessel list program that provides a basis to limit market access to 
only those products taken by authorized vessels.
    Despite the strides made at ICCAT, particularly over the last 
decade, a number of difficult issues remain. Data collection and 
reporting continue to be a challenge for some parties, and a special 
meeting will be held in fall 2003 to consider this matter. Moreover, 
the stock structure of Atlantic bluefin tuna, currently managed as two 
separate stocks, remains in question. ICCAT agreed to convene a meeting 
of scientists and managers in November 2003 to consider this issue. In 
addition, ensuring that ICCAT rebuilding plans stay on course and that 
new programs are developed for any other overfished stocks will be 
important. We intend to ensure that ICCAT continues to make needed 
progress in improving member compliance and non-member cooperation, 
including addressing IUU issues. Progress was made in this area during 
recent intersessional meetings at which members worked to streamline 
ICCAT's current trade instruments and considered the need to broaden 
substantially its existing compliance regime. Currently, the 100 
percent quota payback provision applies to all species under catch or 
landings limitations, including marlin. The penalty and trade sanction 
provisions of this regime, however, only apply to bluefin tuna and 
swordfish. Trade sanction provisions also apply to bigeye tuna. ICCAT 
is developing a more comprehensive monitoring and control program, part 
of which includes clearly defining flag state duties and requiring the 
use of vessel monitoring systems and logbooks. ICCAT will again 
consider these issues in November 2003.
    With respect to compliance issues in ICCAT fisheries, the Secretary 
of Commerce sent letters to the European Commission (EC) in April of 
this year. Secretary Evans noted the importance of the conservation of 
marine fisheries and expressed concern about actions and positions 
taken by the EC at ICCAT in 2002, particularly regarding EC support of 
an eastern bluefin tuna total allowable catch far in excess of 
scientifically recommended, sustainable levels. Secretary Evans stated 
that positions such as these have the potential to threaten the long-
term future of shared resources and to lead to serious friction in 
U.S.- EC trade relations. As an example, the Secretary pointed to a 
petition filed by a recreational fishing organization under Section 301 
of the Trade Act of 1974 that sought relief from allegedly 
unjustifiable acts, policies, and practices of the EC related to ICCAT. 
Although this petition was withdrawn prior to the 2002 ICCAT meeting, 
in his letter, the Secretary urged the EC to take prompt action to 
improve EC compliance with existing ICCAT measures and to reconsider 
accepting science-based conservation measures in the future.
    NOAA Fisheries has also received a request to certify the EC 
pursuant to the Pelly Amendment to the Fishermen's Protective Act of 
1967, for diminishing the effectiveness of ICCAT. The decision on 
certification has been left open for the time being while we monitor 
the activities of the EC and its Member States. In this regard, 
Assistant Administrator Hogarth sent a letter to EC Director General 
for Fisheries explaining the request, noting its seriousness, and 
indicating that we intend to investigate it fully. He has also been in 
contact with the head of the EC delegation to ICCAT concerning this 
matter, and we continued our dialogue at the U.S.-EC High Level 
Fisheries Consultations, held June 30 - July 1, 2003, in Washington, 
D.C., we have consistently stressed the importance of EC implementation 
of its ICCAT commitments and will continue to do so.
    The United States intends to continue its active involvement in 
addressing the problems of overfishing and IUU fishing at the national, 
regional, and global levels. NOAA and its federal partners faced these 
challenges with regard to large-scale pelagic driftnet fishing on the 
high seas. NOAA Fisheries will bring our responsibilities for 
recovering and conserving protected species and habitats, and our 
concern with reducing bycatch and addressing IUU fishing to bear in 
addressing these problems as part of NOAA's global marine stewardship 
mission.
    Thank you, Mr. Chairman, for this opportunity to review how NOAA 
Fisheries is conducting the tasks assigned it pursuant to the many 
international fisheries treaties and conventions with which the United 
States is involved. We are committed to working with our state and 
federal partners for the effective management of our Nation's fisheries 
resources. Mr. Chairman, this concludes my testimony. I would be 
pleased to respond to any questions from Members of the Subcommittee.
                                 ______
                                 
    [Mr. Dunnigan's response to questions submitted for the 
record follows:]

Questions submitted for the record by John Dunnigan from The Honorable 
 Frank Pallone, Jr., Subcommittee on Fisheries Conservation, Wildlife 
        and Oceans Hearing on H.Con.Res. 268, September 11, 2003

    Question #1: Can you give examples of the instances in which trade 
sanctions have been imposed and particularly the ones the U.S. has been 
involved with?
    Answer: The International Commission for the Conservation of 
Atlantic Tunas (ICCAT) has adopted and the United States has 
implemented the following trade restrictive measures with respect to 
the following countries:
Bluefin Tuna and Swordfish Action Plan Recommendations:
    Panama--ICCAT agreed to impose bluefin tuna sanctions in 1996; 
recommendation entered into force August 1997; U.S. regulations 
effective January 1998. ICCAT agreed to lift sanctions in 1999; entered 
into force June 2000; U.S. regulations effective January 2001.
    Honduras--ICCAT agreed to impose bluefin tuna sanctions in 1996; 
entered into force August 1997; U.S. regulations effective August 1997. 
ICCAT agreed to impose swordfish sanctions in 1999; entered into force 
June 2000; U.S. regulations effective January 2001. ICCAT agreed to 
lift bluefin and swordfish sanctions in 2001; entered into force 
September 2002; U.S. regulations under development.
    Belize--ICCAT agreed to impose bluefin tuna sanctions in 1996; 
entered into force August 1997; U.S. regulations effective August 1997. 
ICCAT agreed to impose swordfish sanctions in 1999; entered into force 
June 2000; U.S. regulations effective January 2001. Preliminary 
agreement in 2002 to lift bluefin tuna and swordfish sanctions; there 
was an affirmative decision at the 2003 ICCAT meeting to lift sanctions 
as of January 2004.
Unregulated and Unreported Catches Recommendations:
ICCAT members:
    Equatorial Guinea--Agreed to impose bigeye tuna sanctions in 2000; 
entered into force June 2001; regulations effective December 2002.
    Honduras--Agreed to impose bigeye tuna sanctions in 2000; entered 
into force October 2001. Agreed to lift in 2002; entered into force 
June 2003; U.S. regulations under development.
Non-Members:
    Belize--Agreed to impose bigeye tuna sanctions in 2000; entered 
into force October 2001; U.S. regulations effective December 2002. 
Preliminary agreement in 2002 to lift bluefin tuna and swordfish 
sanctions; there was an affirmative decision at the 2003 ICCAT meeting 
to lift sanctions as of January 2004.
    Cambodia--ICCAT agreed to impose bigeye tuna sanctions in 2000; 
entered into force October 2001; U.S. regulations effective December 
2002.
    St. Vincent and the Grenadines--ICCAT agreed to impose bigeye tuna 
sanctions in 2000; entered into force October 2001; U.S. regulations 
effective December 2002. Preliminary agreement in 2002 to lift as of 
January 2004 pending affirmative decision by ICCAT in 2003.
    Sierra Leone--ICCAT agreed to impose bigeye tuna, swordfish, and 
bluefin tuna sanctions in 2002; entered into force June 2003; U.S. 
regulations under development.
    Bolivia--ICCAT agreed to impose bigeye tuna sanctions in 2002; 
entered into force June 2003; U.S. regulations under development.
    Georgia--ICCAT agreed to impose bigeye tuna sanctions in 2003; will 
enter into force June 2004. U.S. regulations will be developed.
    ICCAT compliance recommendations requiring quota payback for 
overharvest and authorizing trade sanctions as a last resort:
    Equatorial Guinea (ICCAT member)--ICCAT agreed to impose bluefin 
tuna and swordfish sanctions in 1999; entered into force June 2000; 
regulations effective January 2001.
    Question #2: Have these sanction measures been effective?
    Answer: The sanction decisions taken by ICCAT have greatly reduced, 
if not eliminated, harvests of the embargoed species by the sanctioned 
country. Moreover, the multilateral sanctions have provided an 
incentive to many of these countries to cooperate with ICCAT by 
deregistering IUU vessels, implementing monitoring and control regimes, 
joining the Commission, etc. These actions have reduced fishing 
pressure on the stocks in question and have improved ICCAT's control 
over the fisheries under its purview.
    Question #3: What is the hesitancy of the Commission to adopt 
action plans that actually use trade sanctions rather than 
contemplating them?
    Answer: The idea expressed by the word ``contemplate'' does not 
mean ICCAT does not take decisions to apply trade restrictive measures, 
where appropriate and deemed to be effective. ICCAT has adopted a 
number of measures that provide the Commission express authority to 
adopt binding decisions to impose trade restrictive measures under 
certain circumstances. Further, the process for arriving at these 
decisions is set out in the action plans and other documents to ensure 
that the Commission acts in a fair and transparent manner relative to 
any trade decision it may take. As noted, ICCAT has used trade measures 
numerous times to support stock conservation.
    Question #4: Can you explain the quota payback provision of ICCAT's 
compliance recommendations and why trade sanction provisions only apply 
to swordfish and bluefin tuna?
    Answer: The 1996 compliance recommendation outlines a process for 
members to first explain how any overharvest occurred and then describe 
the actions they have taken to prevent further overharvests. Such 
explanations must be made to the Compliance Committee each year. The 
agreement also requires repayment of 100 percent of the amount of these 
overharvests, and ICCAT may recommend other appropriate actions. 
Continued overharvests can result in other penalties, including quota 
reductions of at least 125 percent of the overharvest and, as a last 
resort, trade restrictive measures. ICCAT agreed at its 1997 meeting to 
extend the 1996 compliance agreement to include the South Atlantic 
swordfish fishery. At its 1998 meeting, ICCAT adopted a supplemental 
recommendation that clarifies the application of the compliance 
recommendations in the eastern Atlantic bluefin fishery and the North 
Atlantic swordfish fishery.
    In 2000, a recommendation was adopted to simplify the rules 
regarding the application of quota overharvest and underharvest. This 
recommendation specifies that for any species under quota/catch limit 
management, underages/overages from one year may be added to/must be 
subtracted from the quota/catch limit of the management period 
immediately after, or one year after that year. However, if any 
recommendation on a stock specifically deals with overages/underages, 
then the stock-specific recommendation will take precedence. The 2000 
recommendation recognizes that it is difficult to deduct an overharvest 
from the following year's quota given that there is a one year lag in 
the receipt of catch information and Compliance Committee action. It is 
possible, however, that certain countries can anticipate an overharvest 
and take internal steps to address overharvests from one year to the 
next. This recommendation entered into force in 2001.
    The compliance recommendations of 1996 and 1997 only covered 
swordfish and bluefin tuna because these were the only species under 
quota management at the time. Since then, a number of other stocks have 
come under such management, including bigeye and albacore tunas and 
blue and white marlins.
    Question #5: Would you need additional authority to implement trade 
sanctions on other highly migratory species and if so, what form would 
this authority ideally take--U.S. legislation or ICCAT recommendation?
    Answer: In order to assess quota penalties and to apply trade 
sanctions on species not already covered by ICCAT's compliance 
recommendations, the Commission needed to expand the scope of existing 
measures to include all species under quantitative harvest restriction. 
At its November 2003 meeting, ICCAT adopted a resolution on trade that 
lays out a comprehensive approach to the application of trade 
restrictive measures. It applies broadly to all species, and all 
countries, both contracting and non-contracting parties.
    Question #6: Under what regime are trade sanctions applied to 
bigeye tuna fishing infractions?
    Answer: To date, the Commission has recommended trade restrictive 
measures against ICCAT members and non-members on bigeye tuna products 
in accordance with the 1998 Unregulated and Unreported Catches 
Resolution. This instrument was limited in its application as it 
addressed IUU fishing by large-scale tuna longline vessels. In future 
years, trade restrictive measures will be adopted in accordance with 
the November 2003 trade resolution.
    Question #7: Has the United States received a response to the 
letters sent to the EC in early 2003?
    Answer: The United States received a response from the EC's 
Commissioner for Agriculture, Rural Development and Fisheries in early 
June. The Commissioner expressed surprise at the letter sent by 
Secretary Evans, noting, among other things, that the United States had 
agreed to the eastern Atlantic bluefin tuna total allowable catch at 
the 2002 ICCAT meeting and disagreeing with the U.S. interpretation of 
the scientific advice. Secretary Evans responded to the EC in July 
2003. He noted that the United States and the EC differ on our 
interpretations of scientific advice but that the United States did 
agree to the eastern bluefin tuna TAC in 2002. An important part of 
that agreement, however, was EC implementation of measures to reduce 
small fish harvests, which should help offset any negative effects of 
the high TAC, and to improve data collection and reporting. He called 
on the EC to implement faithfully its ICCAT commitments.
    Question #8: Are these letters a precursor to further action?
    Answer: The United States will continue to engage the EC on 
conservation and compliance matters relative to ICCAT species. We have 
met with our fisheries counterparts numerous times to emphasize to them 
the importance of full implementation of ICCAT's decisions 
(particularly relative to quotas, reducing small bluefin tuna harvests, 
and improving data collection and submission), and to seek specifics on 
this implementation. We will continue to make these efforts. As you may 
know, late last year a request was submitted to the Department of 
Commerce to certify the EC under the Pelly Amendment to the Fishermen's 
Protective Act. At this time, we have left the certification decision 
open pending further investigation and discussion with the EC.
    Question #9: Is this the extent to which the administration is 
willing to push countries to comply with international fisheries 
management recommendations or is this administration willing to impose 
trade restrictions to encourage other countries to comply with 
international recommendations?
    Answer: Notwithstanding the Pelly review discussed above, this 
administration has imposed trade sanctions against both ICCAT members 
and non-members to encourage conformance with ICCAT's rules pursuant to 
multilateral decisions taken at ICCAT. In addition, we have implemented 
a trade tracking program for swordfish that allows us to keep 
undersized swordfish out of our market. As noted above in the response 
to Question #5, ICCAT took action at its November 2003 meeting to adopt 
a new resolution on trade, which we expect will improve the process 
significantly.
    Question #10: Has information concerning the Atlantic Tunas 
Convention Act (ATCA) requirement to identify annually those nations 
whose fishing vessels are fishing or have fished in the previous 
calendar year in a manner that diminishes the effectiveness of a 
conservation recommendation been regularly provided to the Committee? 
When was the last time it was provided?
    Answer: Yes. The ATCA requires that the Secretary of Commerce 
prepare an annual report to the Congress on Atlantic Highly Migratory 
Species by April 1 of each year. Section 2 of that report contains 
relevant information with respect to the identification requirement. We 
last sent in this report in April 2003.
    Question #11: Has a plan to develop a trade monitoring program for 
the import, export, and re-export of swordfish and bigeye tuna been 
formulated? What are the obstacles to implementing such a plan?
    Answer: NOAA Fisheries is currently developing a proposed rule that 
would replace the existing U.S. Swordfish Certificate of Eligibility 
program with the ICCAT Swordfish Statistical document. The rule would 
also implement the ICCAT and IATTC Bigeye Tuna Statistical document 
programs and adopt means to use the statistical documents in 
conjunction with the ICCAT authorized vessel list to prohibit imports 
of IUU product. Careful coordination will be required between NOAA 
Fisheries and the Bureau of Customs and Border Protection regarding 
examination and validation of documents. NOAA Fisheries is examining 
the resource implications of implementing the programs.
    Question #12: Is it true that the United States has been out of, 
and may still be out of, compliance with ICCAT recommendations on 
observer coverage for all longline trips targeting yellowfin and bigeye 
tuna?
    Answer: U.S. observer coverage on the pelagic longline fleet has 
fluctuated between about 3 percent and 6 percent between 1992 and 2001 
and was increased to 8 percent in 2002. Coverage has been 100 percent 
for the Grand Banks swordfish fleet for the last 3 years. While the 
United States may have been out of compliance on some harvest 
limitations and minimum size tolerances in particular years, this is 
not a routine occurrence. In such cases, corrective actions are taken 
either through regulatory adjustments or catch limit adjustments 
consistent with ICCAT recommendations. All such corrective actions have 
been reported to ICCAT via the annual U.S. National Report.
    Question #13: NOAA Fisheries is reportedly evaluating the efficacy 
of recently implemented time-area closures intended to reduce bycatch. 
Can you summarize the preliminary results that have been found for 
these closures? Are international time and area closures a potentially 
effective tool for international fisheries management?
    Answer: The preliminary evaluation of the area closures was 
presented in the 2003 Stock Assessment and Fishery Evaluation Report 
for Atlantic Highly Migratory Species. Generally, swordfish discards 
declined by 25 percent and bluefin tuna and marlin discards declined by 
around 50 percent. International time area closures could be effective 
if the bycatch species of concern are concentrated in discrete areas. 
If the bycatch species are widely dispersed, the costs in terms of lost 
target catch would render area closures impractical. In such cases gear 
modifications may be more feasible.
    Question #14: Last year this hearing focused heavily on white 
marlin and the depleted nature of the stocks. Dr. John Graves mentioned 
the lack of data about post-release mortality as a problem. Have any 
further studies on post-release mortality been completed? Is post-
release mortality factored into the current stock assessments of 
Atlantic white marlin?
    Answer: Dr. Graves and his research team are investigating post-
release mortality of Atlantic white marlin. It is an ongoing research 
concern, but certainly not the only one. The ICCAT Advisory Committee 
and the ICCAT Standing Committee on Research and Statistics have 
separately compiled lists of research needs for this species. In 
addition to post-release mortality, they include: the identification of 
habitat preferences; more generalized production-based population 
assessment models; development of methods to minimize bycatch in each 
of the multiple fisheries in which bycatch occurs; and the 
identification of biological parameters. Research on post-release 
mortality is not yet at a stage at which it can be factored into 
current stock assessments in any comprehensive manner.
    Question #15: Do you think that recovery of North Atlantic 
swordfish by 2009 or before is possible given the total allowable catch 
(TAC) limit set by ICCAT in 2002? If not, does the rebuilding plan need 
to be amended?
    Answer: Recovery of North Atlantic swordfish to biomass levels that 
would support maximum sustainable yield (MSY) is possible by 2009 under 
the revised ICCAT quotas. However, given the high proportion of 
juvenile fish in the current standing stock, it is important that 
harvesting nations abide by the minimum size restrictions to avoid 
excess mortality on pre-spawning fish. If continued progress is not 
evident at the next stock assessment, ICCAT may revise the TAC to 
reduce fishing mortality. The United States will monitor contracting 
parties' compliance with minimum sizes.
    Question #16: A paper appeared in the journal Science in January of 
this year estimating that populations of several of the large coastal 
and oceanic sharks (including scalloped, hammerhead, white, and 
thresher sharks) have declined by over 75% in the past 15 years. ICCAT 
is not responsible for managing these highly migratory species; 
however, it is obvious that without some regulation these species will 
continue to be decimated.
    <bullet> Is there currently an international body monitoring and/
or regulating the demise of highly migratory shark species?
    <bullet> If not, should there be and what form should it take--
regulation under ICCAT or a separate body or conservation fund?
    Answer:
    <bullet> The United States has been aggressively pursuing for a 
number of years improved information collection requirements and 
management measures for sharks in the ICCAT context. Similarly, we have 
been pressing the Northwest Atlantic Fisheries Organization (NAFO) for 
the establishment of catch limits on thorny skates, which account for 
the vast majority of skate catches in the NAFO Regulatory Area. When 
the Convention on the Conservation and Management of Highly Migratory 
Fish Stocks in the Western and Central Pacific Ocean comes into force, 
the Commission it creates will have management competence over pelagic 
sharks, although its initial focus will be on tunas.
    <bullet> Working with the Congress, we are addressing the problem 
of shark finning. We have implemented and are enforcing the Shark 
Finning Prohibition Act, and I am happy to inform you that the 
following countries and the European Union have adopted domestic 
measures that address shark finning in an effort to prohibit the 
practice: Australia, Brazil, Canada, Costa Rica, India, Nicaragua, 
Oman, and South Africa. In the case of Nicaragua, U.S. officials 
consulted regularly with authorities in Managua in the drafting of 
anti-finning legislation, and their final law is nearly identical to 
that of the United States. Mexico is in the process of developing 
comprehensive shark fishing regulations that may prohibit shark 
finning.
    <bullet> Generally speaking, we think the best approach at this 
time to addressing the conservation needs of sharks is to continue 
carrying out the international mandates in the Shark Finning 
Prohibition Act and to implement the FAO International Plan of Action 
for the Conservation and Management of Sharks (IPOA) by urging 
countries to develop corresponding national plans of action and by 
insisting that regional fishery management organizations carry out 
their important roles under the IPOA.
    Question #17: Are data collected by Custom's Automated Commercial 
System (ACS) on imports for fish species and products reported to 
Congress in an annual report? When was the last time that equivalent 
information was provided to Congress?
    Answer: The annual report to Congress required by the Atlantic 
Tunas Convention Act provides import statistics for all Atlantic highly 
migratory species of fish. In addition, specific information on the 
swordfish and bluefin tuna import monitoring programs is provided in 
the annual U.S. National Report to ICCAT and the annual Stock 
Assessment and Fishery Evaluation Report for Atlantic Highly Migratory 
Species (both available on NOAA Fisheries website). We are not aware of 
any particular Congressional request to the Bureau of Customs and 
Border Protection.
                                 ______
                                 
    Mr. Saxton. Jack, thank you very, very much for a very good 
statement.
    Mr. Balton?

  STATEMENT OF DAVID A. BALTON, DEPUTY ASSISTANT SECRETARY OF 
    STATE FOR OCEANS AND FISHERIES, U.S. DEPARTMENT OF STATE

    Mr. Balton. Mr. Chairman, members of the Subcommittee, 
thank you. It is a great pleasure to be here today. I do have a 
written statement, and with your permission, I would ask that 
it be included in the record.
    Mr. Saxton. Without objection.
    Mr. Balton. Thank you.
    I know that this Subcommittee has a particular interest in 
matters affecting Atlantic tunas and the organization known as 
ICCAT. What I would like to do in my oral statement, though, is 
to provide what I see as the broader context within which these 
issues need to be dealt. I would like to make three basic 
points today:
    One--and this will not come as a surprise to anyone--IUU 
fishing, illegal fishing, is a very serious problem worldwide.
    Two, the United States has been a real leader 
internationally in trying to tackle this problem, and we have 
had some real successes.
    But, three, we still face very daunting challenges ahead.
    On that first point, illegal fishing occurs in all capture 
fisheries, both that are conducted within EEZs and those on the 
high seas. As Mr. Dunnigan said, it is difficult to know where 
the problem is greatest. By its very nature, illegal fishing is 
very hard to quantify. Since most fishing occurs within EEZs, 
it may be possible to presume that a large majority of illegal 
fishing also occurs there. However, the high seas does pose 
special challenges because it is the area of the world where no 
one state has authority to enforce. Only cooperatively can high 
seas fishing be brought under control.
    IUU fishing directly frustrates fishing management 
objectives. It can seriously hamper efforts to restore depleted 
fish stocks. It is also grossly unfair to the fisheries who do 
follow the rules and creates disincentives for them to continue 
to do so. The IUU fishers are, in effect, free riders who are 
benefiting from the conservation costs borne by those who do 
follow the rules.
    Although it is difficult to quantify, IUU fishing has been 
estimated by the U.N. Food and Agriculture Organization to 
account for up to 30 percent of catches in some important 
fisheries worldwide, perhaps even more. More troubling still, 
there is evidence that it seems to be on the rise in some 
fisheries.
    Let me turn now to what we have been doing. The United 
States has been working hard to combat illegal fishing on both 
the global level, the regional level, and bilaterally. 
Globally, our efforts have focused on the U.N. Food and 
Agriculture Organization. We were leaders in pressing for and 
getting adopted in 2001 an International Plan of Action to 
prevent, deter, and eliminate IUU fishing. This document is 
conceived of as a toolbox to help countries both individually 
and in cooperation with others to crack down on illegal fishing 
in their own waters and on the high seas. FAO followed up on 
this effort by publishing a book of guidelines further giving 
states, including the United States, recommendations for what 
to do to deal with various types of IUU fishing.
    One of the central commitments in this was for each nation 
that is a member of FAO, including the United States, to 
develop a corresponding national plan of action on IUU fishing. 
And I can report to you today, Mr. Chairman, the United States 
is doing just that. We have a comprehensive national plan of 
action on IUU fishing. It is in the final stages of clearance 
now. It will have quite a few recommendations for us to take as 
an administration and for us to consider in consultation with 
you for recommendations for possible legislative change as 
well. We hope to have it ready for presentation to the 
Subcommittee in the coming weeks, and we look forward to 
discussing it with your staff at that time.
    Regionally, we have been hard at work, as Mr. Dunnigan has 
said, in all of the fishery management organizations of which 
the United States is a member to deal with IUU fishing there 
too. And in many of these organizations, often at the behest of 
the United States, we have new measures in place to control 
illegal fishing. These measures can include satellite-based 
vessel monitoring systems, independent observers on some 
percentage of fishing boats, schemes for boarding and 
inspecting boats at sea, or inspecting them as well when they 
land in port. Other types of ports that control is restrictions 
on landings and transshipment. We have now a wide variety of 
catch documentation schemes, paperwork that must follow fishery 
products around the world. And we have adopted import 
restrictions on a multilateral basis in a number of 
organizations.
    These seem to be having some beneficial effect, and they 
are not just being done in ICCAT. Some of the other 
organizations that are working on these issues include the 
Northwest Atlantic Fishery Organization, NAFO; the Inter-
American Tropical Tuna Commission, the IATTC; the Commission 
for the Conservation of Antarctic Marine Living Resources, 
CCAMLR. And even in the organization not yet up and running, 
the new Tuna Commission for the Central and Western Pacific, in 
its preparatory meetings, work is being done in illegal fishing 
there as well.
    One of the latest efforts that I would highlight is the 
creation of these white lists and black lists of vessels. The 
vision is to ultimately create registers of vessels that 
operate in each of these fisheries. If vessels are not in good 
standing on these lists, products caught by these vessels ought 
not to be imported or traded.
    Bilaterally, we are working with our closest neighbors to 
deal with incidents of cross-border illegal fishing. With 
Canada, we have reciprocal enforcement agreements that apply in 
the Atlantic and Great Lakes. We have good cooperation with 
Canada as well on incidents of cross-border illegal fishing in 
the Pacific.
    With Mexico, we have arrangements in place, and we would 
like to broaden those as well to deal with cross-border 
problems.
    With the People's Republic of China this summer, I would 
highlight a number of instances of very good cooperation we 
received. There were a number of incidents of large-scale drift 
net fishing by Chinese vessels in the North Pacific this year. 
We have an agreement with the PRC that is in place that allowed 
a PRC ship rider to ride aboard U.S. Coast Guard cutters. The 
PRC Government allowed us to board and inspect those vessels on 
the high seas. We were able to document the instances of 
illegal fishing and turn those vessels over to the PRC for 
further investigation and prosecution.
    I would note as well we are dealing with our neighbor 
across the Bering Sea, the Russian Federation, where there are 
serious problems of Russian and third-country vessels crossing 
the maritime boundary line to fish illegally in U.S. waters. We 
have reasonable cooperation with the Russian Fisheries 
Enforcement Service in dealing with those matters, but we have 
proposed a broader, comprehensive agreement, bilateral 
agreement with Russia that we will be discussing with them next 
week in the meeting in Portland.
    Despite all this activity, we have many challenges that we 
face. We must press for full implementation of the measures 
that have already been adopted, both globally and regionally 
and bilaterally. We must, I believe, expand the use of the 
tools in this toolbox to deal with IUU fishing in all its 
forms. No one set of tools works in every situation. It depends 
a lot on the type of fishery involved.
    I would highlight as well that we must provide more 
assistance to developing countries. A large percentage of IUU 
fishing occurs in the zones of developing countries that cannot 
monitor their fisheries there. It is in our own interest to 
help them do a better job of monitoring and controlling those 
fisheries.
    We look forward to working with Congress and considering 
possible strengthening of U.S. laws in this area. As I 
mentioned, we will very likely have a series of recommendations 
for you in the coming weeks.
    Thank you very much for this opportunity.
    [The prepared statement of Mr. Balton follows:]

   Statement of David A. Balton, Deputy Assistant Secretary of State 
           for Oceans and Fisheries, U.S. Department of State

    Mr. Chairman and Members of the Subcommittee:
    I appreciate the opportunity to testify today on international 
fisheries conservation issues and particularly to address issues of 
compliance. It has become increasingly apparent that, even as the 
international community has made enormous progress in the last decade 
towards coordinated management of the world's fishery resources, this 
progress is meaningless without compliance. We are seeing a growing 
incidence of fishing that does not respect international laws and 
regulations. Left unchecked, this illegal fishing can significantly 
diminish the benefits of the fisheries management regimes we have 
worked so hard to establish. And this type of activity is clearly 
unfair to those fishers who do follow the rules.
    The Department of State has been focusing much of its attention on 
fighting illegal, unreported and unregulated (IUU) fishing within 
regional fisheries management organizations, and through our National 
Plan of Action to prevent, deter and eliminate this type of fishing. I 
will outline the efforts underway not just in the International 
Commission for the Conservation of Atlantic Tunas but also in other 
regional bodies, and will summarize some of the new tools contemplated 
by the U.S. National Plan of Action on IUU Fishing.
Compliance Agreement
    In its letter of invitation, the Subcommittee asked about the 1993 
Agreement to Promote Compliance with International Conservation and 
Management Measures by Fishing Vessels on the High Seas (``the 
Compliance Agreement''). The Compliance Agreement entered into force on 
April 24, 2003, upon the deposit of the 25th instrument of acceptance 
with the U.N. Food and Agriculture Organization (FAO), which serves as 
depository for this treaty. Most of the major fishing States are party 
to this treaty, including the United States, Canada, Japan, Mexico, 
South Korea, Norway and the European Community.
    The Compliance Agreement is one of three global fisheries 
instruments of vital significance that have been adopted in the past 
decade, along with the U.N. Fish Stocks Agreement and the non-binding 
Code of Conduct for Responsible Fisheries. The United States played a 
pivotal role in the development of each of these instruments and has 
steadfastly urged all States to implement them.
    Building on the general framework of the 1982 United Nations 
Convention on the Law of the Sea, the Compliance Agreement seeks to 
address the threat to international fisheries management posed by 
vessels that do not abide by agreed fishing rules. The Agreement 
contains three basic requirements:
    <bullet> Each Flag State must ensure that its vessels do not 
engage in any activity that undermines the effectiveness of 
international fishery conservation and management measures, whether or 
not the Flag State is a member of the regional fishery organization 
that adopted such measures;
    <bullet> No Flag State shall allow any of its vessels to be used 
for fishing on the high seas unless the Flag State has specifically 
authorized it to do so; and
    <bullet> No Flag State shall grant such authority to a vessel 
unless the Flag State is able to control the fishing activities of that 
vessel.
    These three rules represent a new vision for high seas fisheries. 
To abide by these rules, Flag States may no longer allow their fishing 
vessels to venture out onto the high seas the way that the early 
explorers ventured out beyond the frontiers of known society. Flag 
States must now actively oversee the high seas fishing operations of 
their vessels. They must decide on a case-by-case basis whether to 
authorize any vessel to fish on the high seas. Most importantly, they 
may not permit any vessel to fish on the high seas at all, unless they 
are able to prevent the vessel from undermining agreed conservation 
rules. The Agreement also seeks to increase the transparency of high 
seas fishing operations through the collection and dissemination of 
data. Parties must submit to FAO a wide range of information on each of 
their respective high seas fishing vessels.
    If all States were parties to the FAO Compliance Agreement and 
other relevant international agreements, and if all States fully 
implemented their commitments under these instruments, there would be 
virtually no IUU fishing. Unfortunately, most of the Flag States whose 
vessels are the greatest source of IUU fishing are not parties to these 
treaties. Encouraging these States to accede to these treaties and to 
implement effective control over their fishing vessels remains a top 
priority.
    I do not want to give the impression, however, that only vessels 
flying the flags of non-parties to these agreements conduct IUU 
fishing. Even responsible fishing nations, such as the United States, 
do not achieve 100 percent compliance by their vessels. Ocean fishing, 
by its very nature, is difficult and costly to monitor. As fish stocks 
decline, the temptation to evade fishing rules grows. To deal with this 
daunting situation, the United States has been among the leaders of the 
international community in fashioning a comprehensive ``toolbox'' of 
measures to crack down on IUU fishing.
National Plan of Action to Prevent, Deter and Eliminate Illegal, 
        Unreported and Unregulated Fishing
    As part of the implementation of the Code of Conduct for 
Responsible Fisheries, the FAO has adopted a number of International 
Plans of Action (IPOA) to address specific international fisheries 
problems. Most recently, the FAO undertook a concerted effort to 
develop a comprehensive ``toolbox'' of measures that States could take, 
both individually and collectively, to address the problems of IUU 
fishing. This effort culminated with the adoption in 2001 of the FAO 
International Plan of Action to Prevent, Deter and Eliminate Illegal, 
Unreported and Unregulated Fishing.
    As its title suggests, the objective of the IPOA is to prevent, 
deter and eliminate IUU fishing. The principles to guide the pursuit of 
this objective include: (1) broad participation and coordination among 
States, as well as representatives from industry, fishing communities 
and non-governmental organizations; (2) the phasing-in of action to 
implement the IPOA on the earliest possible timetable; (3) the use of a 
comprehensive and integrated approach, so as to address all impacts of 
IUU fishing; (4) the maintenance of consistency with the conservation 
and long-term sustainable use of fish stocks and the protection of the 
environment; (5) transparency; and (6) non-discrimination in form or in 
fact against any State or its fishing vessels. States were charged to 
develop their own National Plans of Action to implement the IPOA.
    The draft U.S. National Plan of Action was developed over the past 
two years by the Department of State, the Department of Commerce and 
the U.S. Coast Guard, with input from the U.S. Trade Representative, 
the Customs Service, and others. It is undergoing a final review and 
should be released shortly.
    It is organized along the same lines as the IPOA, including 
sections on All State Responsibilities, Flag State Responsibilities, 
Coastal State Measures, Port State Measures, Internationally Agreed 
Market State Measures, Measures to be Implemented Through Regional 
Fisheries Management Organizations and Special Requirements of 
Developing States. In addition to describing what the United States 
already does to fight IUU fishing, the National Plan of Action also 
lays out a wide range of recommendations for enhancing our abilities in 
this regard, such as changes to vessel registration rules, increased 
sanctions and penalties, tightened port controls, and broader outreach 
and capacity-building with other States.
ICCAT and other Regional Fisheries Management Organizations
    My colleague from NOAA Fisheries has provided a thorough overview 
of the issues surrounding member compliance and illegal fishing within 
ICCAT. Although, with U.S. leadership, ICCAT has been at the forefront 
of developing innovative approaches towards controlling IUU fishing, it 
has become clear that ICCAT's existing tools need to be re-examined and 
updated to reflect the changing nature of IUU fishing. As part of that 
effort, the Department welcomes Congressional action to support U.S. 
efforts in ICCAT such as H.Con.Res. 268, which reiterates U.S. 
commitment towards ensuring compliance with ICCAT measures and offers 
specific guidance how we should support that commitment. We do note 
that some parts of H.Con.Res. 268 would change the standard of review 
for taking trade measures from looking at the actions of a number of 
vessels to the actions of a single vessel. While we agree the United 
States should take every possible action to fight IUU fishing, such a 
narrow standard may present significant implementation difficulties. We 
would be happy to discuss this issue with staff.
    In addition to the work carried out within the FAO and ICCAT, the 
United States is working in other regional organizations to address the 
issue of IUU fishing. In particular, the Inter-American Tropical Tuna 
Commission (IATTC) has been working actively to address the issues of 
IUU fishing in the area regulated by the IATTC. In 2002, the IATTC 
adopted a resolution on purse seine fleet capacity. Among other things, 
the resolution specified that any purse seine vessel not included on 
the IATTC vessel register is not authorized to fish in the IATTC area. 
In the fall of 2002, a number of vessels from the western Pacific 
crossed over into the eastern Pacific to fish on a large biomass of 
yellowfin tuna that moved from the west into the eastern Pacific. The 
Flag States of these vessels ordered the vessels to withdraw from the 
area once they were notified by the Director of the IATTC that the 
vessels were fishing in violation of the IATTC rules.
    More recently, at its annual meeting in June 2002, the IATTC 
adopted measures, similar to the measures adopted in ICCAT, both for a 
catch certification scheme for bigeye tuna and for the development of a 
``positive list'' of large-scale longline fishing vessels authorized to 
fish in the area regulated by the IATTC. The Commission also adopted a 
set of criteria for identifying ``cooperating non-parties.'' Key to 
such designation is that vessels from such non-parties provide all 
relevant data about their operations and that they respect all rules, 
regulations and resolutions governing fishing for highly migratory 
species in the IATTC area.
    Finally, at a special meeting of the IATTC scheduled for this fall, 
the IATTC will consider a U.S. proposal on steps to be taken by members 
and cooperating non-parties of the IATTC in cases of noncompliance with 
IATTC conservation and management measures.
    The Commission for the Conservation of Antarctic Marine Living 
Resources (CCAMLR) also provides a model of how a more comprehensive 
``negative'' vessel list approach could work. Last year, CCAMLR adopted 
measures that establish lists of both member and non-member vessels of 
any kind that are diminishing the effectiveness of CCAMLR. Under the 
CCAMLR measures, the Flag State of vessels on the lists may be 
identified and subject to further action, but the vessels themselves 
are also subject to restrictions on access to certain fisheries. We 
will be watching the implementation of these new measures carefully in 
the next year or two.
    Thank you, Mr. Chairman, for this opportunity to discuss these 
issues. I would be happy to try to answer any questions from the 
Members of the Subcommittee.
                                 ______
                                 
    [Mr. Balton's response to questions submitted for the 
record follows:]

                 Questions for the Record Submitted to

                 Assistant Secretary David A. Balton by

                        Rep. Frank Pallone (#1)

                 Subcommittee on Fisheries Conservation

                         Committee on Resources

                             Sept. 11, 2003

    Question: You mention that even responsible fishing nations, such 
as the United States, do not achieve 100 percent compliance by their 
vessels, and point to monitoring costs as a limiting factor. Is 
achieving 100 percent compliance by the United States possible? If so, 
how can we achieve this? If not, what percent compliance should we be 
striving for and what needs to be done to get there?
    Answer: No government can guarantee 100 percent compliance by all 
its vessels with all fishery conservation and management measures all 
the time. There will always be those who seek to bend or break the 
rules. Even wealthy and technologically advanced nations such as the 
United States cannot have an enforcement presence monitoring all 
fisheries at all times. But the United States has one of the best 
fisheries management and enforcement regimes in the world. The combined 
efforts of the National Marine Fisheries Service's Office of Law 
Enforcement and the U.S. Coast Guard are extremely effective in 
ensuring that the vast majority of U.S. fishing vessels are in 
compliance with both domestic regulations and our international 
obligations. Of course, there is more that we can do. The soon-to-be-
released U.S. National Plan of Action to Prevent, Deter, and Eliminate 
Illegal, Unreported, and Unregulated Fishing represents a comprehensive 
assessment of what the United States is doing to ensure compliance by 
its fishing vessels and lays out a number of recommendations for 
regulatory and legislative changes to make our enforcement regime even 
stronger.
    As we look at compliance by other countries with the rules adopted 
in ICCAT and other regional organizations, we recognize that individual 
violations are less of an issue than a systemic and pervasive lack of 
will or ability by the flag State to control its vessels. In these 
regional fisheries bodies, the United States has led efforts to take 
strong action--including the imposition of trade sanctions--against 
States whose vessels consistently undermine international conservation 
and management measures.

                 Questions for the Record Submitted to

                 Assistant Secretary David A. Balton by

                        Rep. Frank Pallone (#2)

                 Subcommittee on Fisheries Conservation

                         Committee on Resources

                             Sept. 11, 2003

    Question: The U.S. sent letters to the European Commission (EC) in 
April 2003 regarding catch limits that were set above what ICCAT's 
scientific advisory body recommended for bluefin tuna. Has the U.S. 
received a response to these letters? Are these letters a precursor to 
further action? Is this the extent to which the administration is 
willing to push countries to comply with international fisheries 
management recommendations or do you think this administration is 
willing to impose trade restrictions to encourage other countries to 
comply with international recommendations?
    Answer: The Secretary of Commerce exchanged a series of letters 
with EC officials earlier this year on this subject, and the Department 
of Commerce could certainly provide more information on that exchange. 
We met with the EU several times this summer and raised once again our 
concerns about overfishing and excessive juvenile catches in the east 
Atlantic bluefin tuna fishery, among other things. We continue to press 
the EU at a high level to implement the commitments it made at the 2002 
ICCAT annual meeting, and we will work closely with the Department of 
Commerce as it considers the pending request to certify the EU under 
the Pelly Amendment.
    The United States has imposed trade restrictions on a number of 
countries that were identified by ICCAT as undermining ICCAT 
conservation and management measures, and we will consider additional 
action against several others at the upcoming ICCAT annual meeting. 
Combating IUU fishing and achieving compliance with internationally 
agreed rules are essential if we are to ensure the sustainability of 
our shared fisheries resources. This is why the United States has been 
the leader in ICCAT and other organizations in developing strong, 
multilateral programs that use trade and other economic tools to change 
the behavior of problem countries. Our efforts are paying off on many 
fronts, but they will only be successful if all the major fishing 
States and market States work together.
    At the upcoming ICCAT annual meeting, one of our top priorities 
will be updating ICCAT's compliance regimes to ensure that both members 
and non-members are held to the same, strict standard--and that ICCAT 
members can use a suite of quota penalties, landing restrictions, and 
market controls to uphold ICCAT's conservation and management rules.

                 Questions for the Record Submitted to

                 Assistant Secretary David A. Balton by

                        Rep. Frank Pallone (#3)

                 Subcommittee on Fisheries Conservation

                         Committee on Resources

                             Sept. 11, 2003

    Question: A question was raised last year that if other nations 
adopt policies similar to those detailed in H.Con.Res 427, the U.S. 
itself would be vulnerable to trade sanctions. If I recall correctly, 
one of the recommendations for which our compliance was questionable 
required a minimum of five percent observer coverage for all longline 
trips targeting yellowfin and bigeye tuna. While this violation has 
less severe conservation consequences than most of those discussed 
today, it ostensibly makes the United States vulnerable to retaliatory 
actions. Is it true that the U.S. has been out of, and may still be out 
of compliance with ICCAT recommendations? Which ones?
    Answer: The United States acts in good faith within ICCAT and is 
generally in compliance with the conservation and management measures 
adopted under its auspices. Occasionally, we have faced regulatory 
delays--for instance we could not meet a deadline to implement 
mandatory VMS coverage for pelagic longliners pending the resolution of 
litigation. The National Marine Fisheries Service may be better able to 
address the specifics of our level of compliance with all ICCAT 
recommendations.
                                 ______
                                 
    Mr. Saxton. Thank you very much, Mr. Balton.
    Mr. Considine?

 STATEMENT OF JOHN J. CONSIDINE, DIRECTOR, CARGO VERIFICATION 
DIVISION, TRADE COMPLIANCE AND FACILITATION, BUREAU OF CUSTOMS 
                     AND BORDER PROTECTION

    Mr. Considine. Mr. Chairman and members of the Committee, 
thank you for this opportunity to testify.
    Although the main focus of Customs and Border Protection 
(CBP) has shifted to protecting the United States from 
terrorist attacks, CBP also enforces over 400 requirements for 
more than 40 other Federal agencies at the U.S. borders. These 
requirements include the laws that prohibit the illegal 
importation of fish and marine products that fall under the 
jurisdiction of the National Marine Fisheries Service, a part 
of the National Oceanic and Atmospheric Administration under 
the Department of Commerce.
    While the NMFS has the expertise and authority over these 
laws and takes the lead in developing regulations to implement 
these laws, they consult closely with CBP to ensure that such 
regulations are practical to enforce.
    CBP and NMFS have a close working relationship. A 
Memorandum of Understanding between the agencies has been in 
force since 1996. Under this MOU, CBP provides to NMFS, on a 
monthly basis, data collected by our Automated Commercial 
System on imports of fish species and products that NMFS 
monitors for enforcement and compliance purposes. This MOU is 
modified on a regular basis by NMFS to reflect any changes in 
laws, rules, and requirements regarding products under their 
jurisdiction.
    The two agencies have also worked closely in enforcing 
import restrictions on various types of fish. When the 
requirements for the import of these fish and marine products 
are changed, CBP will inform its local offices of these changes 
through memoranda issued to the field. Instructions in our 
Automated Commercial System are updated to ensure that these 
new requirements are met.
    Cooperation between the two agencies on Antarctic and 
Patagonian toothfish, popularly known as the Chilean sea bass, 
over the past few years has led to several significant 
enforcement actions, including seizures and arrests by NMFS for 
the smuggling of toothfish. CBP is also working with NMFS on 
several ongoing investigations on the West Coast.
    NMFS is also exploring setting up a task force to address 
the issue of the illegal importation of Chilean sea bass. 
Representatives from several Federal agencies will be invited 
to participate, and a representative from CBP will be on that 
task force.
    CBP enforces the restrictions and the documentation 
requirements for the importation of Chilean sea bass in the 
following manner: instructions in ACS, our Automated Commercial 
System, have been updated to alert CBP officers to the new rule 
that took effect on June 16, 2003, requiring that imports of 
frozen toothfish and fresh shipments of over 2,000 kilograms 
present a signed and stamped approval NMFS form titled 
``Approval Action of Catch Documents for Toothfish Imports.'' 
Included in the instructions are contact points for CBP 
officers who have questions about the validity of such permits. 
All toothfish shipments are reviewed by CBP for proper 
documentation before they are released.
    If a decision is made to impose import restrictions on more 
fish species, CBP believes that it could operate in a similar 
manner. NMFS would approve a shipment in advance and issue an 
approval document. CBP would examine the paper entry work 
package to ensure that the shipment is in compliance and has 
approval from NMFS. Because of the anticipated volume, CBP 
would not--unlike what is done for toothfish--examine every 
entry package. Instead, CBP would perform selected verification 
on a risk management basis and concentrate on countries and 
importers that NMFS has identified as potential violators of 
international agreements. Any shipment not in compliance would 
be detained or appropriate action by NMFS.
    CBP does not have the knowledge, expertise, or authority to 
implement fish tracking programs. We would leave such matters 
to agencies like NMFS, but as mentioned above, CBP could act as 
a gatekeeper helping prevent illegally caught shipments of 
fish, as determined by NMFS, from entering the U.S.
    CBP does have the authority under its own statutes to seize 
products that are imported in violation of the laws of other 
agencies. The decision on the destruction of any seized fish 
products would be made on a case-by-case basis. Input from the 
agencies concerned would be sought as to whether destruction or 
exportation would be appropriate.
    I would like to thank you and the members of the Committee 
for considering Customs and Border Protection in your review of 
this resolution and will answer any questions the Committee may 
have.
    [The prepared statement of Mr. Considine follows:]

Statement of John J. Considine, Director, Cargo Verification Division, 
    Trade Compliance and Facilitation, Bureau of Customs and Border 
                               Protection

    Mr. Chairman, members of the Committee, thank you for this 
opportunity to testify. I am John Considine, Director of the Cargo 
Verification Division, Trade Compliance and Facilitation at the Bureau 
of Customs and Border Protection (CBP).
    Although the main focus of the CBP has shifted to protecting the 
United States from terrorist attacks, CBP also enforces over 400 
requirements for more than 40 other federal agencies at U.S. borders. 
These requirements include the laws that prohibit the illegal 
importation of fish and marine products that fall under the 
jurisdiction of the National Marine Fisheries Service (NMFS), a part of 
the National Oceanic and Atmospheric Administration (NOAA) under the 
Department of Commerce.
    While the NMFS has the expertise and authority over these laws and 
takes the lead in developing regulations to implement these laws, they 
consult closely with CBP to ensure that such regulations are practical 
to enforce.
    CBP and NMFS have a close working relationship. A Memorandum Of 
Understanding (MOU) between the agencies has been in force since 1996. 
Under this MOU, CBP provides to NMFS, on a monthly basis, data 
collected by our Automated Commercial System (ACS) on imports of fish 
species and products that NMFS monitors for enforcement and compliance 
purposes. This MOU is modified on a regular basis by NMFS to reflect 
any changes in laws, rules and requirements regarding products under 
their jurisdiction.
    The two agencies have also worked closely in enforcing import 
restrictions on various types of fish. When the requirements for the 
import of these fish and marine products are changed, CBP will inform 
its local offices of these changes through memoranda issued to the 
field. Instructions in ACS are updated to ensure that these new 
requirements are met.
    Cooperation between the two agencies on Antarctic and Patagonian 
toothfish, popularly known as Chilean sea bass, over the past few years 
has lead to several significant enforcement actions, including seizures 
and arrests by NMFS for the smuggling of toothfish. CBP is also working 
with NMFS on several ongoing investigations on the West Coast.
    NMFS is also exploring setting up a task force to address the issue 
of the illegal importation of Chilean sea bass. Representatives from 
several federal agencies will be invited to participate. A 
representative from CBP will be on that task force.
    CBP enforces the restrictions and documentation requirements for 
the importation of Chilean sea bass in the following manner: 
Instructions in ACS have been updated to alert CBP officers to the new 
rule that took effect on June 16, 2003 requiring that imports of frozen 
toothfish and fresh shipments of over 2,000 kilograms present a signed 
and stamped approval NMFS form titled ``Approval Action of Catch 
Documents for Toothfish Imports''. Included in the instructions are 
contact points for CBP officers who have questions about the validity 
of such permits. All toothfish shipments are reviewed by CBP for proper 
documentation before they are released.
    If a decision is made to impose import restrictions on more fish 
species CBP believes that it could operate in a similar manner. NMFS 
would approve a shipment in advance and issue an approval document. CBP 
would examine the entry package to ensure that the shipment is in 
compliance and has approval from NMFS. Because of the anticipated 
volume, CBP would not (unlike what is done for toothfish) examine every 
entry package. Instead, CBP would perform selected verification on a 
risk management basis and concentrate on countries and importers that 
NMFS has identified as potential violators of international agreements. 
Any shipment not in compliance would be detained for appropriate action 
by NMFS.
    CBP does not have the knowledge, expertise, or authority to 
implement fish tracking programs. We would leave such matters to 
agencies like NMFS, but as mentioned above, CBP could act as a 
``gatekeeper'' helping prevent illegally caught shipments of fish (as 
determined by NMFS) from entering the U.S.
    CBP does have the authority under its own statutes to seize 
products that are imported in violation of the laws of other agencies. 
The decision on the destruction of any seized fish products would be 
made on case by case basis. Input from the agencies concerned would be 
sought as to whether destruction or exportation would be appropriate.
    I want to thank you and the members of the Committee for 
considering Customs and Border Protection in your review of this 
resolution and will answer any questions the Committee may have.
                                 ______
                                 
    Mr. Saxton. Thank you very much, Mr. Considine.
    Admiral Hathaway?

  STATEMENT OF REAR ADMIRAL JEFFREY J. HATHAWAY, DIRECTOR OF 
        COAST GUARD OPERATIONS POLICY, U.S. COAST GUARD

    Admiral Hathaway. Good morning, Mr. Chairman and members of 
the Subcommittee. I know that you have received my written 
testimony, and I request that that be accepted into the record, 
and I have just a couple other comments to make.
    First of all, the Coast Guard sits here today representing 
our country's at-sea enforcement arm, whether it is operations 
inside our exclusive economic zone or in support of 
international agreements in international waters. Today I will 
tell you that in the international fora, the Coast Guard is 
concentrating its enforcement activities in three areas. Mr. 
Balton has talked about some of those. First of all, the threat 
of high seas drift netters in the North Pacific Ocean. There 
are enforcement regimes there that make that a very good use of 
Coast Guard assets, and as Mr. Balton pointed out, we have made 
some very fruitful seizures there this past year.
    We also concentrate in the Central and Western Pacific 
Island area assisting those island countries to develop their 
own domestic fisheries regimes, which we think is, again, a 
very good long-term investment for this country in terms of 
eventually successfully impacting IUU fishing in that part of 
the world.
    And, finally, in the international fora, we have been 
concentrating in the Pacific in conjunction with our drug 
enforcement and illegal migrant enforcement activities. We have 
found several fishing vessels in violation of the Inter-
American Tropical Tuna Commission regulations. All of those, by 
the way, have been foreign flag vessels, not U.S. flag vessels, 
who for the most part abide by regulations. But what are we 
able to do? We are only able to make a case package and refer 
it to whoever the flag state is. In most cases, it is Mexico 
based on where we operate.
    A couple comments on ICCAT. ICCAT from an at-sea 
enforcement point represents a great challenge for at-sea 
enforcement activities. All of the fish species covered by 
ICCAT are highly migratory, and the geographic area covered by 
ICCAT extends from Iceland to Cape Horn. So, from an at-sea 
enforcement point of view, very, very challenging for your at-
sea enforcement arm, the U.S. Coast Guard. And because of that, 
the focus of ICCAT has not been on at-sea enforcement to date. 
Other enforcement regimes--again, Mr. Balton mentioned several 
of the more fruitful--have been pursued under ICCAT to date.
    With that said, the Coast Guard's integrated deep water 
acquisition project, which will recapitalize our long-distance 
cutters, our high seas cutters, and our long-range aircraft, is 
well under way. The capabilities that that acquisition project 
will give the Coast Guard will allow us to reach further out 
into the international fora and be a more effective 
international enforcement arm for fisheries for the U.S., which 
will include something we don't have now, which is unmanned 
aerial aircraft.
    Finally, I would just like to say that the Coast Guard, 
despite our increased activity in defending our maritime 
borders, remains totally dedicated to our fisheries enforcement 
mission. I will say that just yesterday we seized 47,000 pounds 
of shrimp from a U.S. vessel fishing inside the EEZ. We found 
that he had sewn shut his turtle exclusion devices, and he had 
no bycatch reduction equipment on board. And in addition to 
that, the captain was arrested by the U.S. Coast Guard on an 
outstanding drug charge. So the Coast Guard remains multi-
mission as we are out there.
    I would also say, as we speak in this hearing room, a U.S. 
Coast Guard C-130 aircraft from our air station in Kodiak, 
Alaska, at the request of our Russian colleagues, is flying in 
support of the Russians in an area called the ``doughnut 
hole,'' which is a North Pacific almost no-man's-land, looking 
for a vessel that the Russians had previously sighted who was 
taking illegal offloads of crab from, most likely, Russian 
crabbers in violation of Russian quotas. Mr. Balton mentioned 
some of the international cooperative arrangements we have. The 
U.S. Coast Guard has a reasonably good relationship with the 
Russians, and I see that we would respond to a request from 
them to fly into an area that truly is not under any one 
country's jurisdiction to assist in an international fisheries 
matter as very important.
    So we remain very dedicated to that mission, and the Coast 
Guard, as we increase our assets in the future to be able to 
take into account our new work in defending our maritime 
borders, will be returning probably in fiscal year 2004 to our 
historic levels of resource hours dedicated to the fisheries 
mission.
    Thank you very much.
    [The prepared statement of Admiral Hathaway follows:]

   Statement of Rear Admiral Jeffrey Hathaway, Director, Coast Guard 
        Operations Policy, U.S. Department of Homeland Security

    Good morning Mr. Chairman and distinguished members of the 
Subcommittee. I am Rear Admiral Jeffrey Hathaway, Director of Coast 
Guard Operations Policy. It is a pleasure to appear before you today to 
discuss House Concurrent Resolution 268 and its implications for the 
Coast Guard.
    With respect to House Concurrent Resolution 268, I encourage any 
action that highlights the importance of responsible resource 
management throughout the world's oceans. As the demand for fish 
products increases globally, so too does the responsibility of all 
nations to ensure the sustainability of our very precious and very 
finite fishery resources. The high seas and the resources they hold are 
the village commons of the 21st Century.
    Today we see many significant threats to their sustainability. 
These threats take the form of illegal, unreported and unregulated 
fishing, under-reported catch, using illegal harvesting methods such as 
high seas drift nets (HSDN), and unlawful encroachment into the U.S. 
Exclusive Economic Zone (EEZ). The Coast Guard's role is to enforce the 
laws and regulations that prohibit these practices. This is a mission 
we take very seriously and into which we funnel significant resources. 
This year, 12% of the Coast Guard's Operating Expenses budget is 
dedicated to supporting the fisheries mission.
    The Coast Guard is the only Federal agency capable of projecting a 
law enforcement presence throughout the EEZ and in key areas of the 
high seas. Under the auspices of the Magnuson-Stevens Fisheries 
Conservation and Management Act, the Coast Guard invests significant 
resources to patrol these waters and works closely with domestic and 
international enforcement agencies to thwart illegal fishing practices 
at sea.
    The Coast Guard assists the Department of State in developing 
international enforcement regimes through various Regional Fishery 
Management Organizations such as the International Convention for 
Conservation of Atlantic Tuna, the North Pacific Anadromous Fish 
Commission, the Northwest Atlantic Fisheries Organization, and the 
Convention on the Conservation and Management of Highly Migratory Fish 
Stocks in the Western and Central Pacific to name a few. The Coast 
Guard maintains a liaison officer at the State Department's Office of 
Marine Conservation to advise U.S. delegations to these organizations 
on the enforceability of proposed management regimes. We also work 
closely with the National Oceanic and Atmospheric Administration's 
(NOAA) Fisheries Office for Enforcement and the Department of Justice 
in prosecuting foreign fishers who illegally encroach upon the U.S. 
EEZ.
    ``Fish do not recognize Exclusive Economic Zone (EEZ) boundaries'' 
is an oft-quoted phrase in the fisheries management and enforcement 
business, and the Coast Guard is directly engaged with enforcement 
agencies in Canada, Mexico, the Russian Federation, Japan, South Korea, 
the People's Republic of China and many other nations to promote 
sustainability through compliance with regulations and management 
regimes. Our efforts include enforcement Memoranda of Agreement, 
fisheries enforcement workshops, ship rider agreements, joint 
operations, and boarding officer training. In an action plan on the 
Marine Environment and Tanker Safety prepared in June 2003 at the G-8 
Summit in Evian, France, G-8 leaders, including President Bush, pledged 
to work toward sustainable fisheries and marine conservation.
    I would like to share with you a success story in international 
cooperation and effective enforcement. In 1991, the United Nations 
declared an international moratorium on the use of large-scale (greater 
than 2.5 kilometers in length) pelagic high seas driftnets. Since that 
time, the U.S. Coast Guard, NOAA Fisheries, the Canadian Department of 
Fisheries and Oceans, the Russian Federal Border Service, the People's 
Republic of China Bureau of Fisheries, and the Fisheries Agency of 
Japan have worked together to seize 18 high seas driftnet vessels, 
including four this summer. Our closely coordinated efforts have 
resulted in Russian officers staffing a joint command center in Alaska; 
Chinese enforcement officers sailing on U.S. Coast Guard cutters; and 
NOAA Fisheries agents flying in Canadian Air Force surveillance planes. 
These countries are also members of the North Pacific Heads of Coast 
Guard organization in which the Commandant of the Coast Guard is a 
participant. The North Pacific Heads of Coast Guard, recognizing the 
importance of fisheries, recently implemented a Fisheries Working Group 
to meet regularly and discuss fisheries issues of regional interest.
    The Coast Guard's fisheries law enforcement strategic plan OCEAN 
GUARDIAN, stipulates that our highest priority enforcement mission is 
to prevent encroachment of the U.S. EEZ and internal waters by foreign 
fishing vessels. The Plan also emphasizes ensuring compliance with 
international agreements for the management of living marine resources, 
such as the International Convention on the Conservation of Atlantic 
Tunas (ICCAT), and the HSDN moratorium I mentioned earlier.
    Fisheries enforcement, particularly enforcement of international 
fisheries management schemes, is a mission largely conducted by Coast 
Guard Deepwater assets. The U.S. EEZ is the largest and most productive 
in the world. It covers 3.36 million square miles of ocean and includes 
95,000 miles of coastline. It contains an estimated 20% of the world's 
fishery resources. These vast patrol areas, coupled with the long 
distance from U.S. shores--for example the non-contiguous EEZ in the 
central Pacific--provide a significant challenge to the Coast Guard's 
assets. As fish stocks throughout the world dwindle and the fleets of 
distant water fishing nations are being pushed farther from home and 
into the high seas in search of catch, the bounty of our EEZ becomes a 
more attractive quarry. The improved capabilities the Coast Guard will 
garner and the technology we will have available to leverage as a 
result of the Integrated Deepwater System project will greatly enhance 
our ability to enforce international fisheries regulations in the U.S. 
EEZ and beyond.
    The world is becoming more aware of the need to ensure the 
sustainability of our collective fish stocks. At the same time, the 
United States is becoming increasingly involved in the management of 
living marine resources on the high seas. Naturally, this means the 
Coast Guard will become even more involved in the enforcement of 
agreements to which the U.S. is a party. In the past, international 
policies governing the conservation of high seas fisheries fell well 
short of their goals because they lacked any effective enforcement 
provisions. However, in 1995, a landmark agreement, the Straddling Fish 
Stocks and Highly Migratory Fish Stocks Agreement established the 
framework for all future international fishery regimes. This agreement 
calls for strict adherence with fishery conservation measures and, more 
importantly, contains non-flag state enforcement provisions that allow 
the Coast Guard to board foreign fishing vessels flagged by any nation 
party to any mutual international fishing agreement. The Agreement 
entered into force on December 11, 2001.
    I believe emphasis in three areas is the key to improving our 
international fisheries enforcement posture. First, active 
participation in international fora such as the Regional Fishery 
Management Organizations I mentioned earlier. Second, working within 
those fora to develop a regulatory regime that not only sustains the 
resources, but is also enforceable. Finally, providing the resources 
necessary to carry out enforcement operations under that scheme. By 
resources, I am referring to people, vessels and also technology such 
as the Vessel Monitoring System, multi-lateral working groups like the 
North Pacific Heads of Coast Guard organization, and combined 
operations such as the high seas driftnet operations in the North 
Pacific.
    Thank you for the opportunity to testify before you today. I will 
be happy to answer any questions you may have.
                                 ______
                                 
    [RADM Hathaway's response to questions submitted for the 
record follows:]

Response to questions submitted for the record by Rear Admiral Jeffrey 
 Hathaway, Director, U.S. Coast Guard Operations Policy, Department of 
                           Homeland Security

IUU FISHING
    QUESTION: RADM Hathaway, Mr. Balton from the State Department 
mentions in his testimony that most of the flag States whose vessels 
are the greatest source of IUU fishing are not parties to international 
fishing treaties.
    In your testimony you mention the Straddling Fish Stocks and Highly 
Migratory Fish Stocks Agreement, which allows the Coast Guard to board 
foreign fishing vessels flagged by nations that are a party to the 
mutual international fishing agreements. It appears that you are 
helpless to stop IUU fishing from flag states whose vessels are the 
greatest source of IUU fishing.
    <bullet> Is this True?
    Besides convincing these rogue nations to sign international 
agreements, how could this problem be solved (see below related 
question/suggestions)?
    ANSWER: The Coast Guard is not helpless to stop IUU fishing. 
International law, fishery management conventions, and various 
memorandums between the U.S. and foreign governments present a number 
of enforcement options available to the Coast Guard depending on the 
specific circumstances of each scenario. Examples of enforcement 
options against foreign fishing vessels available to the Coast Guard on 
the high seas include:
    <bullet> Taking action on behalf of the flag state. This was done 
in July and August 2003 on four People's Republic of China vessels 
conducting illegal high seas driftnet operations.
    <bullet> The United Nations Fish Stocks Agreement allows non-flag 
state boardings, and we are using this as leverage in all of our 
interactions with foreign nations when looking for their assistance or 
approval of USCG actions.
    <bullet> Assisting the flag state in conducting its own 
enforcement operations by embarking law enforcement ship riders on 
Coast Guard vessels.
    <bullet> Preparing a case package and submitting it to the flag 
state for enforcement action via State Department as a demarche. This 
was done in Aug 2003 for two South Korean vessels suspected of illegal 
high seas driftnet operations.
FISHING VESSELS
    QUESTION: A recent Atlantic Monthly article (September 2003) 
mentioned that in July 2002 President Bush signed an executive order 
expanding the U.S. Navy's authority to intercept merchant ships on the 
high seas in order to keep watch over the several hundred ships on the 
government's terrorist suspect list.
    Does the U.S. government list of suspect merchant vessels include 
fishing vessels?
    ANSWER: The U.S. government list of suspect merchant vessels would 
include fishing vessels only if they are suspected of activities 
unrelated to fishing operations that were for or in support of 
terrorist activities.
ILLEGAL FISHING VESSELS INTERCEPTION
    QUESTION: Does the Coast Guard have a similar authority to 
intercept illegal fishing vessels from countries not party to 
international fishing agreements?
    ANSWER: With regard to the authority attributed to the Atlantic 
Monthly article ``Anarchy at Sea'' (September, 2003), the Coast Guard 
is unaware of any executive order issued during the stated time period 
that expanded on the U.S. Navy's authority to intercept merchant ships 
on the high seas. As a result, the Coast Guard does not have similar 
authority.
    However, in the absence of an international agreement in force and 
if a vessel is not otherwise subject to the jurisdiction of the United 
States, the Coast Guard has the authority to board foreign vessels 
engaged in illegal fishing only with the ad hoc consent of the flag or 
coastal State. Under international law, the Coast Guard may also board 
and exercise jurisdiction over vessels without nationality that may be 
engaged in illegal fishing.
ICCAT
    QUESTION: Can this list (mentioned in the Atlantic Monthly article) 
be combined with the ICCAT's recommended ``black list'' of fishing 
vessels from non-Contracting parties that have been involved in IUU 
fishing for joint enforcement among U.S. agencies?
    ANSWER: ICCAT is not recommending a ``black list'' of fishing 
vessels, but a ``white list'' of vessels that do not engage in illegal 
fishing practices. This makes it impossible to combine these two lists. 
Further, it would be inappropriate to combine any U.S. government's 
terrorist suspect list with any list of vessels that are suspected of 
engaging in illegal fishing practices. We are, however, fusing this 
``white list'' and many other pieces of information and intelligence to 
further our Maritime Domain Awareness and increase the effectiveness of 
our operations.
                                 ______
                                 
    Mr. Saxton. Admiral, thank you.
    Let me return for just a moment, or maybe for more than 
that, to an issue that I mentioned in my opening statement, and 
that is that the latest stock assessment that I have seen 
indicates that the total Atlantic stock population of white 
marlin has declined to less than 12 percent of its maximum 
sustainable yield level. This is an issue which should serve, 
in my opinion, as an example or a warning of the level of 
effectiveness of the international fisheries management regimes 
that we currently depend on for conservation purposes. Those 
international regimes I think have proven to be less effective 
than we all would at least hope they would be.
    Several of you have talked about the IUU issues, and I 
think most everyone would agree that fishing and non-compliance 
are serious problems within the context of conservation and the 
issues that we are dealing with.
    So, from a United States point of view, a country which has 
proven over decades and now centuries to be world leaders in a 
variety of ways, one need only to turn on a cable news station 
to see examples of leadership or attempts at leadership in a 
variety of ways, economically, politically, militarily, and 
conservation-wise.
    So what is it that we need to do--let me ask this question: 
How can the U.S. take unilateral action as a world leader to 
bring into compliance the conservation measures that are 
necessary to have a reasonable chance of conserving species 
such as white marlin, but not limited to white marlin, and 
others? What unilateral action can we take to try to accomplish 
these kinds of goals? Mr. Dunnigan?
    Mr. Dunnigan. Thank you very much. Let me say first off 
that we in NOAA certainly share your concern and appreciate 
your leadership on this question of the status of white marlin. 
We did make the determination last year that it didn't deserve 
to be listed under the Endangered Species Act, but that does 
not mean that we are not completely dedicated to working 
through the ICCAT forums and in our own management program to 
provide the conservation that this species needs. ICCAT has 
started to put together the rebuilding plan. They have 
instituted very conservative country quotas. We are in the 
process right now of promulgating the rule that will make these 
quotas apply, the 250-fish limit that we have for our 
fishermen, that will make them apply to our fishermen.
    Part of the problem in white marlin is that it is a lot 
more important to us than it is to a lot of other countries, 
where we have the very large recreational fishery that depends 
on white marlin. In a lot of other countries where they have 
commercial fisheries, it is considered to be a relatively low-
value species, so they have not really devoted the kind of 
attention to it that we would want them to.
    So we will continue to press at ICCAT, and we believe that 
ICCAT needs to do a better job with its conservation and 
enforcement measures, and we will be working very hard to push 
ICCAT in that direction.
    As far as unilateral measures, which is what you really 
asked about, there is not a lot that we can do without having 
some start. We can take unilateral action, for example, under 
the Pelly Amendment, or there are some provisions that are 
available to us in the Atlantic Tunas Convention Act. And we 
were asked to look into the Pelly Amendment by five State 
Governors and a couple of nongovernmental organizations last 
year. We have kept that record open. We are going to continue 
to observe the actions of the European Community as they step 
forward to carry out the responsibilities that we all came home 
from ICCAT with last year. And if the case presents itself, I 
believe that we will be prepared to follow through on the 
statutory authority that we have.
    But, essentially, in both of those cases you are talking 
about first having to have some underlying conservation regime 
that is established by an international organization so that we 
can make a finding that a country's vessels are taking action 
that diminishes the effectiveness of that regime. So you have 
to at least start, I think, with some level of cooperation to 
specify what the management program needs to be. And then later 
on, if a country is not following through, then we have some 
ability under those laws to take unilateral action.
    Mr. Saxton. Mr. Balton, do you want to take a crack at 
this?
    Mr. Balton. Thank you, Mr. Chairman. I don't have very much 
to add to what Mr. Dunnigan said. International fisheries, 
particularly for highly migratory species, are such that no one 
state operating on its own can produce a successful solution. 
As Mr. Dunnigan, you first need to get agreement from the major 
fisheries and the major market states on a conservation regime, 
but once that is in place, the United States does have tools at 
its disposal to promote compliance with the rules that have 
been adopted multilaterally.
    But a lot of what can be done are the sorts of things you 
are doing. Congress can raise the profile of this issue. You 
can put pressure on the United States administration to put 
pressure on other countries at international meetings. We can 
look at the statutory tools that we have in place already and 
use them more, maybe broaden them.
    A strictly unilateral approach is not likely to win the 
day. We need to somehow mix multilateral conservation measures 
with unilateral measures. So, for example, there are certain 
species, bluefin tuna, for which the U.S. has a very small 
market, relatively speaking. There is not much we can do on our 
own to control problems of overfishing in bluefin tuna. Ninety 
percent of it goes to Japan. We need to work with Japan if we 
are to have a successful regime there. With swordfish, the U.S. 
shares the lion's share of the market with the European and 
other states. Once again, operating solely on our own, we are 
unlikely to achieve a full solution to the problem of swordfish 
conservation.
    Thank you.
    Mr. Saxton. Mr. Considine, do you want to take a crack at 
this?
    Mr. Considine. I am afraid it is probably outside my area 
of expertise, sir.
    Mr. Saxton. OK. Then let me just go back and revisit this 
question again with Mr. Dunnigan and Mr. Balton. It seems to me 
that both of your answers tended to point toward international 
cooperation, which is what ICCAT is all about. But that wasn't 
my question. My question is: What can the United States do 
unilaterally to be a world leader to show the folks at ICCAT 
and other participants in the fisheries that we are going to 
lead the way in solving this problem?
    For example, if the United States and Japan, for example, 
the two largest importing nations for fish products, if these 
two countries were to block imports from countries that are not 
complying with ICCAT fishing measures, wouldn't that be 
effective?
    Mr. Balton. Mr. Chairman, we are doing just that within 
ICCAT. We have pioneered rules. If countries are fishing 
illegally, they are identified by ICCAT. They have 1 year, in 
principle, to correct the behavior. If they do not do so, ICCAT 
will require all members in the United States, Japan, all of 
the importing states to prohibit imports of that species from 
that country.
    Mr. Saxton. Which countries have we prohibited imports 
from?
    Mr. Balton. I would have to give you a--get back to you on 
a full list. But, for example, one member of ICCAT itself, an 
actual ICCAT member, Equatorial Guinea, was under trade 
sanctions for bluefin tuna. Many countries are under import 
restrictions with respect to swordfish. A couple of years ago, 
we instituted import restrictions, prohibitions on a variety of 
countries with respect to big-eye tuna. So that is expanding. 
And with respect to bluefin tuna, as I said, the market is in 
Japan; swordfish is shared. Big-eye tuna mostly goes to Asia. 
It depends on the species, it depends on the nature of the 
fishery. But we are doing exactly what you are suggesting. And 
yes, it was largely at U.S. behest that these procedures were 
put into place.
    Mr. Saxton. Do we ever take unilateral action outside of 
ICCAT, or do we have to wait for ICCAT to make a determination 
that a country is in violation?
    Mr. Balton. We have not gotten ahead of ICCAT. But I think 
when we present to you the list of countries under a trade 
sanction, you will be rather impressed just how many there are. 
And I cannot think of instances off the top of my head where we 
felt strongly that a particular country ought to be under trade 
sanctions and ICCAT did not agree.
    Mr. Saxton. Mr. Dunnigan?
    Mr. Dunnigan. I hate to keep coming back to this, but I 
just believe it is absolutely the truth. We are going to make 
the greatest progress toward getting where we want to go by 
working with our partners. If you look at a lot of the IUU 
fishing that has been going on over the last couple of years, 
it has been centered in Asia. And the Japanese have actually 
been very aggressive in working with the Government of Taiwan 
and a number of other parties in that part of the world to 
ferret out and track where this IUU fishing has been happening. 
And we would not be able to move forward on this if we were 
doing it strictly on our own. The best strategy that we have to 
get to where we want to go is to work with the other countries.
    Mr. Saxton. Well, I am going to yield my time, or move on 
to Mr. Pallone. But I couldn't disagree with you more. I mean, 
the record proves that we are not being effective in using the 
regimes that we are currently using.
    Here is what I think is going to happen. We are going to 
take unilateral action. You know what it is going to be? It is 
going to be unilateral action against U.S. commercial and 
recreational fishing interests through the Endangered Species 
Act. That is what is going to happen. When we are forced to--
when you are forced to close the white marlin fishery because 
of the Endangered Species Act, you are going to put everybody 
out of business that goes offshore for commercial fishing or 
for recreational fishing. That is when we will finally get 
serious about international conservation. I don't think we are 
serious about it today.
    And I don't think--I am not pointing at you as individuals. 
I am talking about the conservation regimes that are in place 
today, that are proven ineffective. If you look at what has 
happened to, again, white marlin over the last 40 years, these 
regimes have been in place, you have all been working 
internationally, cooperating with each other, getting ICCAT to 
identify bad actors, doing what you do, and the population of 
marlin continues to drop.
    So, if this was a court of law, a prosecutor would come and 
indict the process and lock it up, because it is not working.
    Mr. Pallone?
    Mr. Pallone. Thank you, Mr. Chairman. My questions are of 
Mr. Dunnigan, although I guess others can jump in if they like.
    In your written testimony you mentioned that the decision 
on certification of the EC pursuant to the Pelly Amendment has 
been left open. When do you expect to make a decision in that 
regard?
    Mr. Dunnigan. Thank you, Mr. Pallone. This is a matter that 
we, as I said, have left open, and we don't have a specific 
timetable. We have made it very clear to the European Community 
that we are going to continue to monitor their implementation 
and their compliance with the recommendations that came out of 
ICCAT last year. They have made great statements about what 
they are going to do for juvenile tuna, they have made great 
statements about what they are going to do for their data 
programs. All of these are very important.
    Mr. Pallone. Can you give us any estimated timetable?
    Mr. Dunnigan. After we get back from ICCAT this year, we 
will review the situation again, but no, we don't have any 
specific drop-dead date that we are looking at that we are 
going to--
    Mr. Pallone. But you are going to try to address it after 
the ICCAT meeting?
    Mr. Dunnigan. Well, we will take another review of it at 
that point.
    Mr. Pallone. Last year, this hearing focused heavily on 
white marlin and the depleted nature of the stocks. Obviously, 
you know, that is a--from the Chairman's comment, that is a 
continued concern. And Dr. John Graves mentioned the lack of 
data about post-release mortality as a problem. Have any 
further studies on post-release mortality been completed? And 
is post-release mortality factored into the current stock 
assessments of Atlantic white marlin?
    Mr. Dunnigan. Mr. Pallone, I think that deserves a very 
specific answer that I can't give you here this morning.
    Mr. Pallone. Or you can get back to us.
    Mr. Dunnigan. Yes, we would be glad to get back to you.
    Mr. Pallone. All right. I appreciate that.
    With regard to swordfish, the recovery rate of North 
Atlantic swordfish has been impressive, from the accounts that 
I have read, but nonetheless, the stock is still severely over-
fished. Do you think that recovery of North Atlantic swordfish 
by 2009 or before is possible, given current rates of fishing 
and stock recovery? And if not, does the rebuilding plan need 
to be amended?
    Mr. Dunnigan. If we are talking specifically about 
swordfish, I think I would not say that the rebuilding plan 
appears to need to be amended. As I recall, the assessment last 
year told us that the swordfish stock was at about 94 percent 
of the biomass at maximum sustainable yield. It is as close to 
being recovered as--well, it is very close to being recovered, 
and we expect that it will get to that level.
    Mr. Pallone. So you think it is--we will be able to recover 
by 2009?
    Mr. Dunnigan. For North Atlantic swordfish, yes.
    Mr. Pallone. There was a paper that appeared in the journal 
Science in January this year estimating the populations of 
several of large coastal and oceanic sharks--and that includes 
scalloped hammerhead, white, and thresher sharks--have declined 
by over 75 percent in the past 15 years. I know ICCAT is not 
responsible for managing these highly migratory species; 
however, it is obvious that without some regulation, these 
species will continue to be decimated.
    So my question is, is there currently an international body 
monitoring and/or regulating the demise of highly migratory 
shark species? And if not, should there be one?
    Mr. Dunnigan. I am going to ask that I be allowed to 
supplement this in writing, just to make sure. I don't believe 
that we have a specific body right now. There has been a lot of 
attention paid to sharks all over the world. There is an 
international plan of action for addressing elasmobranch 
species. I know at NAFO, the United States is a leader in 
having that organization look at, especially, thorny sharks. I 
know there is a lot of attention given to it around the world. 
We, of course, have a significant management responsibility for 
sharks in our own waters, under the Magnuson-Stevens Act, and 
that occupies a lot of the time of our Highly Migratory Species 
staff. But I am not specifically aware that there is a single 
international body right now that is looking at shark 
management.
    Mr. Pallone. Well, do you think there should be something--
    Mr. Dunnigan. Perhaps Mr. Balton could add to that.
    Mr. Pallone. --then, is what I am asking, if there isn't 
anything now? Sure, Mr. Balton?
    Mr. Balton. Mr. Dunnigan is right that, in the Atlantic, 
the organization that deals with tunas doesn't have direct 
management authority for sharks. It is only tunas and tuna-like 
species. It might be possible to change that. It would require 
amending the ICCAT Convention.
    In the Pacific, however, we are better off. We have the 
Inter-American Tropical Tuna Commission. It was based on a 1950 
treaty that has just been renegotiated. We will be presenting 
it to the Senate this year, I believe, and it should enter into 
force fairly soon. And it will give that organization 
responsibility for species including sharks.
    Similarly, in the Central and Western Pacific, a new 
convention creating a new commission there will also have 
authority to deal with shark species.
    Mr. Pallone. But you might have to amend ICCAT, you said?
    Mr. Balton. ICCAT as currently configured does not have 
direct management responsibility for sharks. They can be dealt 
with as bycatch. We would like to see that changed. The 
prospects of doing so are not great, though, right now. ICCAT 
has so much else on its agenda.
    Mr. Pallone. OK. Did you want--I can ask one more 
question--again of Mr. Dunnigan or Mr. Considine, whoever wants 
to answer it.
    The Stock Assessment and Fishery Evaluation for Atlantic 
Highly Migratory Species 2003 said that NOAA fisheries would 
have developed a trade monitoring program for the import, 
export, and reexport of swordfish and big-eye tuna by early 
this year. And this was to comply with ICCAT's 2001 annual 
meeting recommendations. Do you know if a plan has been 
developed with a program, or a program formulated in this 
regard, and whatever obstacles there might be to implementing 
such a plan?
    Mr. Dunnigan. We have implemented a program to carry out 
those recommendations. We actually do import-export 
documentation now for swordfish, for bluefin tuna, for big-eye 
tuna, and for Patagonian tooth fish. And really, this is the 
way that a lot of enforcement is going for international trade, 
the requirement for documentation to accompany all imports. It 
helps us to know that the fish was harvested legally in the 
first place.
    Those programs are cooperative. We are working, as I said 
earlier, through the MCS network with other countries. We work 
very closely with the Customs Service.
    Mr. Pallone. You say you have developed a plan, though? Is 
that something that--
    Mr. Dunnigan. Those documentation programs are in effect. 
We are supplying documentation to our exporters for big-eye 
tuna, because that was the new one that was added.
    Mr. Pallone. Right.
    Mr. Dunnigan. Because other countries have insisted that 
the ICCAT recommendation be implemented immediately. We are 
still getting the rule out to make it final for big-eye in this 
country, but the other ones, documentation programs, are in 
place.
    Our big challenge right now, by the way, is that they are 
all a little different in the way they got their authority, so 
we are trying to figure out a way to come up with a common 
system that meets all of the data requirements for all four of 
those programs.
    Mr. Pallone. And what about other highly migratory species? 
Why not for all highly migratory species?
    Mr. Dunnigan. Right now, the requirement is not there in 
ICCAT or other organizations to do that. But frankly, I see 
that coming. I see we are moving, especially in this context of 
authorized vessel lists and prohibited vessel lists. I think we 
are moving to a world where the import-export trade is going to 
be accompanied with documentation that ties the product back to 
the method of harvest and the legality of harvest. I think it 
is coming generally in fishing.
    Mr. Pallone. Do you want authorization for these other 
species or, you know, should Congress do something about that?
    Mr. Dunnigan. I think we ought to look into it. Right now, 
our authority to do that derives from specific statutory bases, 
for example, the Atlantic Tunas Act that gives us the authority 
to implement the ICCAT recommendations, the CCAMLR statute that 
gives us the authority to implement those. If we are going this 
way generally--we will have to look at it, but it may be 
appropriate to have a broader approach legislatively for the 
United States. And we would be glad to work with you on that.
    Mr. Pallone. Thank you. Thank you, Mr. Chairman.
    Mr. Saxton. Mr. Faleomavaega?
    Mr. Faleomavaega. Thank you, Mr. Chairman. In the interest 
of time, Mr. Chairman, I would like to ask unanimous consent to 
submit a series of written questions to the members of the 
panel to respond to for the record.
    Mr. Faleomavaega. Mr. Chairman, I could not agree more with 
your concerns about the problems that we face. And unless I am 
hard of hearing--and I apologize, I did not specifically read 
every portion of the gentlemen's statements--I have not heard 
whether your respective agencies support the substance of this 
resolution. I would like to ask Mr. Dunnigan, does the 
administration support the resolution?
    Mr. Dunnigan. The administration welcomes the attention 
that Congress is giving. We do support the intent of the 
resolution. We have some concerns about some specific language 
that is in it that we would like to have an opportunity to talk 
to the Committee staff about.
    For example, part of the language refers to actions by 
individual vessels in other countries and if they violate a 
law, it creates a--it appears to create a presumption that the 
country has violated the international statute. We need to--
    Mr. Faleomavaega. So you do have some concerns.
    Mr. Dunnigan. --make sure we don't set an unrealistic 
standard.
    Mr. Faleomavaega. So you do have some concerns.
    Mr. Dunnigan. Just about the language, yes.
    Mr. Faleomavaega. So do you have some recommendations to 
make changes in the resolution?
    Mr. Dunnigan. We think we ought to talk to your staff about 
that.
    Mr. Faleomavaega. I think we are being too diplomatic about 
this, Mr. Chairman. I think we need a sledgehammer, because if 
my sense of the Chairman's concerns are accurate, this has not 
been a 1-year problem. This has been 5 years, 20 years, and 
thousands of his constituents from the commercial fishing 
industry who have had a tremendous, tremendous impact on the 
coastline states. I suspect in this part of our country, 
despite whatever international and regional commissions or 
organizations that we are a part of, that the problem is that 
we are just spinning our wheels. There are no substantive 
results from all these recommendations, those which are 
supposed to be enforced by these commissions. I think what the 
Chairman is trying to say is, if they cannot do the job, then 
maybe the Congress has to do it, and the recommendation offered 
in this resolution is let's put forth trade sanctions.
    I would like to offer a suggestion, Mr. Chairman, that 
maybe we ought to extend our EEZ zone to 1,000 miles. Maybe 
that might be a better way of allowing us, our own country, 
unilaterally, to take real, strong conservation measures and to 
protect our economic interests, not only for our commercial 
fishermen but as well as our recreational interests.
    What do you think of that, Mr. Dunnigan?
    Mr. Dunnigan. I certainly don't believe that the 
administration has a position yet on suggesting that we extend 
our exclusive economic zone beyond 200 miles.
    Mr. Faleomavaega. Could I offer a recommendation? Because 
of the failures of these regional organizations to do what they 
should be doing, could the administration do a little study to 
see what the economic impact would be if we say, all right, 
because you failed to do this, we are going to extend our 
exclusive economic zone to 1,000 miles? What would be the 
result in terms of our recreational and our commercial 
interests given the problems that we have had with white marlin 
and all these other things? We have 110 long-line fishermen 
from the East Coast that are now in Hawaii because of the 
moratorium placed on the swordfish, as I recall, simply because 
of over-fishing.
    I welcome your comment, Mr. Dunnigan.
    Mr. Dunnigan. Well, I thank you, and I certainly respect 
and understand your concerns. Even if we were to carve up all 
of the oceans and give them all to different countries' 
exclusive jurisdictions, it wouldn't solve our problems when 
you are talking about fishery resources that migrate broadly 
across oceans. One way or the other, we are going to have to 
resolve these problems in collaboration with the other 
countries that we are going to share these resources with.
    And I think that, and what I would like to say is that 
there is always this question of the glass being half-full or 
half-empty. I think that there is a lot of progress that has 
been made. There is a lot of progress that has been made in 
ICCAT. We have seen rebuilding of swordfish. We saw in the 
latest stock assessment some improvement in bluefin tuna 
stocks. We have now got an agreement by the Eastern Atlantic 
countries to sit down and talk about managing the entire tuna 
stock as unit. We have commitments for better data programs, 
and we are working on having better compliance and monitoring.
    ICCAT only started working with a recommendation on white 
marlin in the year 2000. So some of these things have got to 
have some time to play out. I still think that we have some 
hard work to do at ICCAT. And it is not perfect; it is 
difficult. But it is really the way that we are going to be 
able to go, with these highly migratory species that are trans-
oceanic, to get effective conservation.
    Mr. Faleomavaega. Oh, I know what you mean, because this is 
one of the issues that we have faced in the Pacific, our self-
declaration that tuna, being highly migratory fish, have no 
boundary. So this little island nation named the Solomons, 
confiscated one of our purse seiners and it caused a tremendous 
international problem. We put sanctions on this little island 
nation, the Solomons, simply because our vessels went right 
into their EEZ. As a result we had to get rid of this theory, 
or this idea, that because tuna is a highly migratory fish, you 
can fish anywhere. That did not help our fishing industry, I 
might say.
    But, sharing the Chairman's concerns, has the 
administration established any benchmarks? For example, where 
are we after a 2-year period, and where are we going in order 
to show exactly whether ICCAT is really doing its job or is it 
just dragging its feet? Or are they just giving you the 
runaround? As the Chairman had said, there continues to be a 
depletion of the stock of species that are supposed to be 
ICCAT's responsibility to conserve.
    Mr. Dunnigan. Thank you. Again, I would say that I think 
that ICCAT is making a lot of progress. We don't have 
benchmarks in ICCAT quite the same way that we do in our 
domestic management program, where we look at minimum spawning 
stock thresholds and maximum fishing mortality thresholds. All 
of those parameters are calculated by the scientists that 
support the decisionmakers, but ICCAT doesn't adopt those same 
sorts of benchmarks specifically.
    This is a business of incremental progress and of being 
patient and of sticking to it and not giving up.
    Mr. Faleomavaega. I didn't mean to hit you with these 
questions. I would like to ask Admiral Hathaway, do you think 
the Coast Guard should participate in our military operations 
in Iraq?
    Admiral Hathaway. Thank you for that question. A little off 
the subject, but the Coast Guard has been for many years a very 
proud and capable member of our joint war-fighting team. And I 
certainly believe, and I know the commandant of the Coast Guard 
believes, that it is in the best interest of the American 
public that it stay that way. However, we do bring unique 
capabilities to our joint force package. We have a niche in the 
expeditionary overseas missionary, and we think we perform that 
very well. And I think that everyone involved had only rave 
reviews for Coast Guard participation that continues today 
supporting Iraqi freedom.
    Mr. Faleomavaega. Well, I just want you to know how 
appreciative and proud I am to know that you had a role, and 
that all the men and women associated with our Coast Guard are 
doing a fantastic job. Whether it be in time of military need 
or protecting our coastline, I think you are doing a fantastic 
job.
    I don't have any questions to ask Mr. Considine. As you 
have constantly said, Customs is out of this whole picture, 
practically, but that is OK.
    Mr. Balton, regarding the State Department policy on this 
very issue: Is suggesting that we do trade sanctions as a 
possible option something that the State Department would 
support, such as that offered in the proposed resolution?
    Mr. Balton. Let me first look at the resolution and talk 
about trade sanctions more generally. As Mr. Dunnigan said, we 
support the thrust of this resolution. We do think it is 
appropriate that Congress express its view of the need for 
ICCAT to take stronger measures and to be more effective.
    There is some wording in here, as Mr. Dunnigan suggested, 
that raise a question. So for example, I am looking at this 
phrase that says ``if any vessel'' of a commission member or 
non-member fishes in a way in violation of ICCAT rules, then 
trade sanctions kick in. If every nation adopted this rule, the 
U.S. could not export tuna. Because no country, including the 
United States, can guarantee 100 percent compliance by all its 
vessels at all times.
    It is that sort of issue we want to sort out with your 
staff, to try to get the standard to be the right standard. 
That is what he was referring to.
    Mr. Faleomavaega. As you know, the concurrent resolution 
really is just an expression of the sense of the Congress.
    Mr. Balton. Yes, I understand.
    Mr. Faleomavaega. I thought that maybe the Chairman may 
want to go to the next phase by putting more teeth into it and 
by not calling it a resolution, but by making a bill out it and 
really get the attention of ICCAT. What do you think of that?
    Mr. Balton. That would make it all the more important to 
get the standard to be the appropriate one. And single-vessel 
standard, in my view, is not the appropriate standard. We could 
not meet that standard.
    However, we are already prohibiting imports of tuna caught 
in the Atlantic from many countries, based on the ICCAT 
multilateral trade restriction scheme. We chair the committee 
in ICCAT that governs these issues. Indeed, I chaired it myself 
one year. It is quite effective. We may need to expand it, may 
need to do more of the same. But it is not like we are not 
using trade sanctions already.
    Mr. Faleomavaega. Gentlemen, thank you. Thank you, Mr. 
Chairman.
    Mr. Saxton. Mr. Balton, do you agree with the general 
thrust of the resolution?
    Mr. Balton. Yes, Mr. Chairman. I think I already said that.
    Mr. Saxton. Mr. Dunnigan, do you agree with the general 
thrust of the resolution?
    Mr. Dunnigan. Yes, Mr. Chairman.
    Mr. Saxton. Thank you. That is a good thing.
    Mr. Dunnigan. Thank you.
    Mr. Saxton. We held a hearing similar to this one--I am 
sure my colleagues will remember--about a year ago. Are we any 
better off today than we were a year ago, when we held the 
hearing? Have we made any progress?
    Mr. Dunnigan. I think we significantly are, Mr. Chairman. I 
think we made a lot of progress at ICCAT last year. And 
frankly, I think, from our standpoint in the delegation, it is 
helpful to know that we have the support and the attention and 
the concern of the Congress behind us. But last year at ICCAT, 
we worked on rebuilding programs, we emphasized the need for 
data. ICCAT, for the first time in a long time, recognized that 
as an organization it was changing, and we brought a lot of 
countries under the tent. There is now a quota table for 
eastern bluefin tuna, where all of the countries that are 
fishing are on that table and now have a clear, affirmative 
obligation to limit themselves to quotas.
    I think we came back from ICCAT with an improving structure 
that gives us some hope that the organization is going to be 
able to be even more effective in the future. And by my earlier 
comments, I think you understand, we agree that ICCAT needs to 
become more effective. We are working very hard to make it a 
more effective organization. And we think we made a lot of 
progress. That was part of the good news that we came back from 
ICCAT with last year. So I think we are further ahead, 
especially, you know, once ICCAT recognized the scientific 
advice of the improvement in the swordfish stocks.
    There is still a lot to do. White marlin is a problem; we 
have got to keep working on it.
    Mr. Saxton. Tell me what--in a general sense, what is the 
biggest issue, what is the biggest problem facing the ICCAT 
process?
    Mr. Dunnigan. I would say right now the biggest issue is 
improving and making more effective its compliance schemes.
    Mr. Saxton. Mr. Balton, you are agreeing, I think?
    Mr. Balton. Yes.
    Mr. Saxton. What can Congress do to be helpful? You both 
have indicated that it is helpful to have Congress sit up and 
take notice and say that we are interested, which we are, as 
you can tell. If you had a blank sheet of paper and you could 
say here, Congress, this is what you need to do to help us, 
what would that be?
    Mr. Balton. It is a difficult question to answer. Let me 
try this: I have a vision of ICCAT that in several years we 
will have gotten the organization to fully implement this white 
list approach. This would be, in effect, a register of ICCAT 
vessels that are permitted to fish in the Atlantic for tunas; 
and that vessels that are not on the list--and you only get on 
the list if you are in good standing--cannot sell their 
product, cannot land it, cannot have it transshipped, cannot 
have it imported. I would like to see that implemented. I don't 
know whether the current ATCA, the Atlantic Tuna Conventions 
Act, provides the type of specific legislative you need to make 
that work. But that is still a few years down the road. I think 
that ultimately will be the best approach for ICCAT, along with 
many other measures that it will be taking. But it may not be 
timely for us to look at changing the law today. We may need to 
see how specifically ICCAT develops and implements its white 
list. But that is the sort of thing that we will want to work 
with Congress on to make effective.
    Mr. Saxton. Jack?
    Mr. Dunnigan. Thank you, Mr. Chairman. I think I would 
agree with Mr. Balton. And getting back to a comment that I 
made a little bit earlier, as we see more and more of 
international fisheries conservation going in the direction of 
focusing on trade, we may need to have some serious discussions 
about whether this sort of fishery-by-fishery piecemeal 
approach is the best one, or whether we ought to have a more 
comprehensive, broader approach toward fisheries trade and 
developing mechanisms to really effectively keep illegal 
product out of this country.
    The other thing that we ought to be thinking about in terms 
of improving conservation, in a monitoring sense, is observer 
coverage. It is a very controversial issue. In NAFO, for 
example, right now, NAFO requires 100 percent observers on all 
vessels fishing in the NAFO area. And that is very expensive. 
But we need to look at whether or not--clearly, in most 
fisheries, we need to have dramatically more observer coverage 
than we have now. And I think we need to look at other new 
technologies, such as vessel monitoring systems, and the 
possibility of making investments there.
    In an international sense, the United States could be even 
a better leader if we could help export some of this 
capability, this monitoring and compliance capability to other 
countries. We have been doing some of that, and that might be 
an area where we could devote some more attention.
    Mr. Saxton. Let me make a suggestion for short-term help. 
You both agree with the general thrust of the resolution, and I 
think that is great. And Dave has indicated that he is more 
than willing to work with you on language. Let's get this 
passed. Let's get it in a form that the administration can 
support it. Let's get it passed. Then about the same time, I 
will introduce, as Mr. Faleomavaega suggested, a proposed 
statute which does--which would implement the provisions of 
this resolution. And when you go to ICCAT, you can go and say 
those crazy guys in Congress, look at what they are going to do 
if we don't make progress. And maybe that will give you some 
leverage that you don't have. I mean, if we take a baby step 
and then we say that we are going to take a real step, and then 
you go with an arrow in your quiver that you don't now have. 
What do you think?
    Mr. Dunnigan. I think we would be glad to work with you on 
that. Again, we need to know--
    Mr. Saxton. Does that mean yes?
    Mr. Dunnigan. --and our partners at ICCAT--
    Mr. Saxton. You know, there are some guys that advise us 
over on the House floor. And when we walk in, we say what time 
are we going to vote? They say, well, sir, it may be about 2 
o'clock or so. And then I come back and I ask them another 
question, and I say what time are we going to be finished 
today? And they say, well, possibly around 10 o'clock, but it 
could be a little earlier or a little later.
    Now, you are giving me those kinds of answers. I want to 
know if this would be helpful as an arrow in your quiver when 
you go to ICCAT.
    Mr. Dunnigan. Mr. Chairman, it is an honor to be compared 
to House of Representatives staff.
    Mr. Saxton. That is an even more vague answer than I got 
before. Is there something wrong with my English?
    Mr. Dunnigan. And we will be glad to work with you. Thank 
you.
    [Laughter.]
    Mr. Saxton. OK.
    Frank, have you got any questions?
    Mr. Pallone. Yes, I wanted to ask a couple of things, but 
I--
    Mr. Saxton. You will probably get a ``maybe'' answer.
    Mr. Pallone. What you said about the questions we get, you 
know, about the House schedule was certainly true last night 
and this week. That is a perfect example of it.
    I just--a couple of things. Following up on one thing that 
Mr. Dunnigan said, you mentioned the importance of observer 
coverage. And I know that we have also raised this concern to 
you, with regard to the resolution, that, you know, whether the 
U.S. itself would be vulnerable to trade sanctions. And one of 
the recommendations for which our compliance was questionable 
required a minimum of 5 percent observer coverage for all long-
line trips targeting yellowfin and big-eye tuna.
    Is it true--I guess the question is, is it true that the 
U.S. has been out of, and may still be out of, compliance with 
ICCAT recommendations. And if you want to comment on which ones 
those might be?
    Mr. Dunnigan. I don't believe that we are out of compliance 
with ICCAT recommendations right now. I don't have the numbers 
on the specific details for the question you asked, and we will 
have to get you those separately. We take these 
responsibilities for implementing ICCAT very seriously. Ask our 
fishermen. You know, they certainly understand that we are 
serious about implementing these things.
    Mr. Pallone. Well, if you want to get back to us on it.
    Mr. Dunnigan. I am going to have to get back to you on 
that.
    Mr. Pallone. I would appreciate it.
    Mr. Dunnigan. Sure. Thank you.
    Mr. Pallone. And then I wanted to ask Admiral Hathaway, Mr. 
Balton mentions in his testimony that most of the flag states 
whose vessels are the greatest source of IUU fishing are not 
parties to international fishing treaties. And in your 
testimony, you mentioned the Straddling Fish Stocks and Highly 
Migratory Fish Stocks agreement, which allows the Coast Guard 
to board foreign fishing vessels flagged by nations that are 
party to mutual international fishing agreements. It appears 
you are helpless to stop IUU fishing from the flag states whose 
vessels are the greatest source of IUU fishing. Is that true? 
And how could that problem be solved if it is true?
    Admiral Hathaway. Well, sir, once again we come at this 
from the Coast Guard point of view, at-sea enforcement. We have 
seen that where we are able to devise cooperative agreements 
with signatory flag states to various international agreements, 
we can devise very effective at-sea enforcement regimes. I 
think Mr. Balton's statement is right, that many of our 
international agreements that exist today are absent the 
signatures of some very significant countries that we would 
like to see as signatories. And I think that that is a process 
that is going to take time. And as we bring more countries on 
board, those countries that are hold-outs for whatever reason 
are going to be pressured to eventually get on board.
    What I can tell you is that, when we have those significant 
countries as signatories, the Coast Guard has been very 
successful in devising very enforceable at-sea regimes to be 
able to take very effective action. And the best example of 
that in recent memory has been in the high seas driftnet arena, 
where we do have, in many cases, the right countries signed up, 
the PRCs of the world--South Korea, Russia--and we have been 
able to devise some very effective at-sea enforcement regimes.
    But we have a lot of work to do to bring some significant 
countries on board with other international agreements--and, I 
would say, including ICCAT. I am sure that there are other 
countries we would like to bring into that forum.
    Mr. Pallone. OK. And I just have one more question, Mr. 
Chairman. Mr. Dunnigan, this year's Stock Assessment and 
Fishery Evaluation for Atlantic Highly Migratory Species 
indicated that NOAA fisheries is currently evaluating the 
efficacy of recently implemented time-area closures intended to 
reduce bycatch. Can you summarize the results that have been 
found for these closures? And are international time and area 
closures a potentially effective tool for international 
fisheries management?
    Mr. Dunnigan. Yes, thank you, Mr. Pallone. I think that 
time and area closures are always an effective tool that needs 
to be in the arsenal of any fishery management organization, 
and they need to be applied appropriately with the fishery 
conservation needs and the practices in those fisheries.
    We have implemented some significant time-area closures in 
our fisheries, and we are still in the process of doing an 
assessment of the effectiveness of those. But some of the 
preliminary information is showing that they can be very 
effective, and we are very pleased with the early returns that 
we are getting. But we are still looking at that, and we 
won't--we don't have that available yet.
    Mr. Pallone. This is specifically with reducing bycatch, 
right?
    Mr. Dunnigan. Not only with reducing bycatch, but also with 
improving the status of some of the resources.
    Mr. Pallone. OK. Thank you.
    And Mr. Chairman, I know I asked some of the questions he 
said he would get back to us in writing, and maybe we can 
submit those in writing, with your permission, so that you know 
specifically what we were asking.
    Thank you.
    Mr. Saxton. Thank you, Mr. Pallone.
    One of you mentioned the High Seas Driftnet Fisheries 
Enforcement Act, and Dave reminded me that the Act, that Act 
has serious trade sanctions in the law and that when we 
threatened driftnet fisheries nations with sanctions, we got 
compliance. Do we need to do something like that to the 
Atlantic Tuna Conservation Act?
    Mr. Dunnigan. I wouldn't suggest that right now, Mr. 
Chairman. I think that we have a lot of tools that are 
available to us working with ICCAT and in the Atlantic Tunas 
Convention Act. So I wouldn't suggest right now taking that 
same approach. I think it is fairly clear to people who watch 
what we do--and they do watch--that there is an enormous amount 
of interest in the Congress and in the community at large in 
making sure that these systems work. And I wouldn't recommend 
right now that you need to take that action. But I think 
knowing that you have it on your mind is helping us. It is 
helping us with the other countries.
    Mr. Saxton. Thank you very much. Do you have further 
questions, Mr. Pallone?
    We have no further questions at this time. We thank you for 
coming here today.
    I would just remind everyone who is here that at 12 o'clock 
on the west side of the Capitol, there will be a memorial 
service for the events of 2 years ago today. I am sure 
everybody remembers exactly where they were. I do. And as I 
turned on the television this morning, although I deal in a 
different forum with that subject every single day, seeing 
those pictures again was a grim reminder of those events and 
everything that has transpired since then. So it would 
certainly be appropriate for all of us to go and join our 
colleagues and friends on the west side of the Capitol this 
morning. I certainly will be there, and hope you will.
    Thank you. And thank you for being here today. We are 
adjourned.
    [Whereupon, at 11:37 a.m., the Subcommittee was adjourned.]

</pre></body></html>
